<html>
<title> - POLICING STRATEGIES FOR THE 21ST CENTURY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                POLICING STRATEGIES FOR THE 21ST CENTURY

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2015

                               __________

                           Serial No. 114-29

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
         
         
         


      Available via the World Wide Web: http://judiciary.house.gov
      
                            ____________________      
      
                         U.S. GOVERNMENT PUBLISHING OFFICE
 94-653 PDF                       WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
     
     
     
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
        
        
        
        
                            C O N T E N T S

                              ----------                              

                              MAY 19, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     2

                               WITNESSES

David A. Clarke, Jr., Sheriff, Milwaukee County Sheriff's Office, 
  Milwaukee, WI
  Oral Testimony.................................................     5
  Prepared Statement.............................................     8

W. Craig Hartley, Jr., Executive Director, Commission on 
  Accreditation of Law Enforcement Agencies
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14

Susan Rahr, Executive Director, Washington State Criminal Justice 
  Training Commission and Member of President Obama's Task Force 
  on 21st Century Policing
  Oral Testimony.................................................    43
  Prepared Statement.............................................    45

Matthew Barge, Vice President & Deputy Director, Police 
  Assessment Resource Center (PARC)
  Oral Testimony.................................................    47
  Prepared Statement.............................................    49

Deborah A. Ramirez, Professor of Law, Northeastern University 
  School of Law, Boston, MA
  Oral Testimony.................................................    60
  Prepared Statement.............................................    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Luis V. Gutierrez, a Member 
  in Congress from the State of Illinois, and Member, Committee 
  on the Judiciary...............................................    90

Material submitted by the Honorable Cedric Richmond, a Member in 
  Congress from the State of Louisiana, and Member, Committee on 
  the Judiciary..................................................    94

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from Rabbi Meyer H. May, Executive Director, Simon 
  Wiesenthal Center..............................................   112

Response to Questions for the Record from David A. Clarke, Jr., 
  Sheriff, Milwaukee County Sheriff's Office, Milwaukee, WI......   119

Response to Questions for the Record from W. Craig Hartley, Jr., 
  Executive Director, Commission on Accreditation of Law 
  Enforcement Agencies...........................................   122

Response to Questions for the Record from Susan Rahr, Executive 
  Director, Washington State Criminal Justice Training Commission 
  and Member of President Obama's Task Force on 21st Century 
  Policing.......................................................   125

Response to Questions for the Record from Matthew Barge, Vice 
  President & Deputy Director, Police Assessment Resource Center 
  (PARC).........................................................   127

Response to Questions for the Record from Deborah A. Ramirez, 
  Professor of Law, Northeastern University School of Law, 
  Boston, MA.....................................................   131

                 <greek-l> deg.OFFICIAL HEARING RECORD
          Unprinted Material Submitted for the Hearing Record

Material submitted by the the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   109

  http://docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=103474


                      POLICING STRATEGIES FOR THE 
                              21ST CENTURY

                              ----------                              


                         TUESDAY, MAY 19, 2015

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:09 a.m., in Room 
2141, Rayburn Office Building, the Honorable Bob Goodlatte 
(Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Chabot, Issa, King, 
Franks, Gohmert, Jordan, Poe, Marino, Gowdy, Farenthold, 
Collins, DeSantis, Walters, Buck, Ratcliffe, Bishop, Conyers, 
Nadler, Lofgren, Jackson Lee, Cohen, Johnson, Pierluisi, Chu, 
Deutch, Gutierrez, Bass, Richmond, DelBene, Jeffries, 
Cicilline, and Peters.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & 
Chief; Allison Halataei, Parliamentarian & General Counsel; 
Chris Grieco, Counsel, Subcommittee on Crime, Terrorism, 
Homeland Security, and Investigations; Kelsey Williams, Clerk; 
(Minority) Perry Apelbaum, Staff Director & Chief Counsel; 
Danielle Brown, Chief Legislative Counsel & Parliamentarian; 
Kennan Keller, Counsel; and Maggie Lopatin, Clerk.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order. And without objection, the Chair is authorized 
to declare recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on policing 
strategy for the 21st century. I will begin by recognizing 
myself for an opening statement.
    Policing is an inherently dangerous job. Our law 
enforcement officers deserve our gratitude for the work they do 
on a daily basis to make sure that our streets are safe, the 
most helpless in our communities are protected, and those who 
commit crimes are brought to justice.
    I am very concerned that force is used appropriately, and 
that police officers are taking appropriate steps to protect 
innocent civilians when they make encounters. There is 
increasing unrest in our urban communities about policing. 
Protests in Ferguson, New York, and Baltimore were the 
outgrowth of the use of force by police officers stopping a 
suspect. Although no charges were filed against the officers in 
question in two of those cases, it is clear that there is 
widespread disagreement about the actions of police in those 
instances.
    What started as peaceful protests turned into violent riots 
where, again, the police reaction to those riots was brought 
into question.
    At the same time, I am increasingly concerned with the 
repeated targeting of our police and law enforcement personnel. 
Last week, we learned that two more police officers were 
killed. Officers Dean and Tate responding to a routine traffic 
stop in Hattiesburg, Mississippi, were gunned down by a group 
of five men.
    This comes on the heels of the more widely known murders of 
Officers Ramos and Liu in New York. It has been reported that 
they were specifically targeted by a man looking to kill a 
police officer.
    While I refuse to consider the actions of police officers 
in Ferguson and New York as justifying the responses that 
befell those cities, it is clear that we must find a better way 
for our police and citizens to interact both in everyday 
situations and when more difficult circumstances arise.
    We have a distinguished panel before us today with deep 
knowledge of police training, tactics, and policies. We have 
longstanding leaders in the police community. We have 
instructors responsible for police training. Finally, we have 
those tasked with monitoring those police departments that have 
not met the standards we require of them.
    I am hopeful that this will be a constructive and positive 
hearing that focuses on current rules and regulations in place, 
the training our officers receive, and how we can train them 
better in order to apprehend criminals while minimizing harm to 
innocent citizens.
    I am especially interested to hear what we can do to raise 
the level of trust among our police officers and citizens while 
still protecting both.
    Policing will never be an easy or safe job, but I believe 
we must do everything we can to ensure that our officers have 
the tools and training they need to protect themselves and our 
Nation's citizens.
    I would also like to thank the gentleman from Michigan, Mr. 
Conyers, the Ranking Member, for working with us so closely to 
arrange this hearing. And I was also inspired by the 
gentlewoman from Texas, Ms. Jackson Lee, who has been speaking 
with me for some time about this issue. I thank them both.
    I want to assure all of you that the purpose of this 
hearing and the ongoing efforts of this Committee following 
this hearing is to make sure that we are doing everything 
possible to address the problems that have arisen in recent 
months, to make sure that our communities are safer, our police 
officers are safer, our citizens' rights are protected, and 
that we will not rest until we make progress in those regards.
    At this time, it is my pleasure to recognize the Ranking 
Member of the Committee, the gentleman from Michigan, Mr. 
Conyers, for his opening statement.
    Mr. Conyers. Thank you, Mr. Goodlatte, our Chairman.
    Members of the Committee, and to our distinguished 
witnesses, and to those who have come to this hearing, law 
enforcement accountability is an issue that is very topical, 
given current events, but also one that has long been a concern 
of mine and many other Members.
    As a Member of Congress, I have stood on the streets of 
Detroit with a bullhorn and appealed for calm while my city 
burned around me in 1967. Thinking back, there was a race riot 
in Detroit in 1943.
    On too many occasions, I have met with the grieving 
relatives of those who have lost their lives at the hands of 
police. But I have also met with the families of police 
officers who lost their lives in the line of duty. Some of 
these officers were killed by violent criminals while other 
officers were inadvertently killed by some of their colleagues 
who could only see the color of their skin.
    I have cochaired town hall meetings with fellow Members of 
Congress and others across this Nation in response to policing 
incidents in Chicago, Miami, New York, and Los Angeles. At 
these meetings, we tried to help the residents of these cities 
make sense of how to respond to their collective sense of loss 
and to understand the role of the Federal Government in 
protecting their civil rights.
    I have proposed numerous bills to both help protect the 
safety of police officers and to provide a system of 
accountability for law enforcement.
    For example, I worked with Attorney General John Ashcroft 
at the invitation of President George Bush to craft Federal 
legislation intended to end use of racial profiling in police 
practices, which is currently pending in this Committee as H.R. 
1933. Next month, I plan to introduce comprehensive legislation 
dealing with accreditation, data collection, and policing 
practices.
    Fortunately, our Committee has generally approached the 
issue of policing with a strong, bipartisan spirit. We have 
enjoyed success in passing reform legislation--notably, the 
passage of the Pattern and Practice Enforcement statute, which 
was codified as Section 14141 of Title 42 of the United States 
Code in 1994. And we twice passed the Traffic Stops Statistics 
Study Act under the chairmanship of Chairman Henry Hyde.
    By scheduling today's hearing, Chairman Goodlatte continues 
this legacy and is commended for his willingness to face a 
difficult issue that has divided communities around the United 
States.
    Any discussion of law enforcement accountability must be 
premised on the recognition of the dangerous and difficult job 
that all police officers perform. The vast majority of police 
officers perform their jobs professionally and without bias. 
But like any profession, there are those who make it difficult 
for the rest to serve their communities.
    At the outset, I must agree with Professor Orlando 
Patterson when he says that the complex and confounding 
questions raised by Ferguson, Baltimore, and other cities go 
well beyond the issues of racism and violent police behavior. 
What occurred in those cities clearly resulted from a vicious 
tangle of concentrated poverty and culturally disenfranchised 
youth, as well as a countervailing culture of law enforcement 
disconnected from their communities and that is lacking 
appropriate standards and oversight.
    Yesterday, President Obama was in Camden, New Jersey, to 
highlight his Administration's initiatives to address the 
challenges of policing in our inner cities. While I support the 
President's efforts and look forward to working with him to 
implement his programs, there is no substitute for concrete 
performance standards for State and local law enforcement 
agencies that receive billions of dollars each year in Federal 
funding.
    For reform-focused police executives, many of the current 
administrative programs are merely icing on the cake and 
probably will not reach many chronically underperforming or 
troubled departments.
    The entire purpose of Section 14141 was to add teeth to 
Federal enforcement that was absent in the grantmaking process. 
Although pattern and practice enforcement has been effective in 
cases of individual departments, it is far too resource-heavy 
to reach across the more than 17,000 police departments in our 
country.
    There must be another way, and I hope that today we can 
talk about the combination of Federal, State, and local 
measures that are essential to support necessary changes in 
policing culture.
    The national outcry that arose after Michael Brown's death 
is nothing new to those who are students of policing practices. 
From the Sean Bell, Abner Louima, and Amadou Diallo incidents 
in New York, to the Eddie Macklin shooting in Miami, to the 
Timothy Thomas Over-the-Rhine shooting in Cincinnati, and the 
Donovan Jackson beating in Englewood, the response is nearly 
always the same: national outcry followed by well-intentioned 
programs that never quite get to the heart of the matter.
    Out of respect for all who have lost their lives over the 
last 9 months, both law enforcement and civilian, I hope that 
we can dedicate ourselves to engaging the difficult issues to 
make lasting change in our community.
    I thank the Chairman.
    Mr. Goodlatte. Thank you, Mr. Conyers.
    And without objection, all Members' opening statements will 
be made a part of the record.
    We welcome our distinguished panel of witnesses today. And 
if you would all please rise, I will begin by swearing you in.
    Please raise your right hand. Do you and each of you 
solemnly swear that the testimony that you are about to give 
shall be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you very much. Let the record reflect that the 
witnesses responded in the affirmative.
    Sheriff David A. Clarke, Jr., has served as a sheriff in 
Milwaukee County, Wisconsin, since March 2002, when he was 
appointed by then-Governor Scott McCallum. He was elected in 
November 2002 and is currently serving his fourth term as 
sheriff. Sheriff Clarke holds a bachelor's degree in criminal 
justice management from Concordia University in Wisconsin, a 
master's in security studies from the Naval Postgraduate 
School, and has completed various executive education programs 
with the FBI and at Harvard University's John F. Kennedy School 
of Government.
    Matthew Barge is the vice president and deputy director of 
the Police Assessment Resource Center, PARC. Among Mr. Barge's 
areas of expertise are use-of-force policies; officer training; 
and counseling law enforcement agencies to achieve efficient, 
constitutional policing. Mr. Barge graduated summa cum laude 
from Georgetown University and holds a J.D. from the New York 
University School of Law.
    Susan Rahr is executive director of the Washington State 
Criminal Justice Training Commission, a position she has held 
since 2012. From 2005 to 2012, she served as the first female 
sheriff in King County, Washington. She previously spent over 
30 years as a law enforcement officer. She received a 
bachelor's degree from Washington State University and 
currently serves as a member of President Obama's Task Force on 
21st Century Policing.
    W. Craig Hartley Jr. is the executive director of the 
Commission on Accreditation of Law Enforcement Agencies, CALEA. 
He began his career with the Greensboro, North Carolina, Police 
Department in 1989 and served in a number of positions within 
the agency before becoming assistant chief of police. Prior to 
joining CALEA, Mr. Hartley worked for the Virginia Department 
of Criminal Justice Services, where he led the department's 
Public Policy, Planning, and Research Division. Mr. Hartley 
holds a bachelor's in criminal justice from Appalachian State 
University and a master's in public affairs from the University 
of North Carolina at Greensboro.
    Professor Deborah Ramirez teaches criminal justice at the 
Northeastern University School of Law in Boston, Massachusetts. 
Much of her work focuses on strengthening partnerships between 
law enforcement and communities, which is integral to building 
trust and fair, effective policing. Professor Ramirez received 
a bachelor's degree at Northwestern University and a J.D. from 
Harvard Law School.
    All of your written testimonies will be entered into the 
record in their entirety. I ask that each of you summarize your 
testimony in 5 minutes or less.
    To help you stay within that time, there is a timing light 
on your table. When the light switches from green to yellow, 
you have 1 minute to conclude your testimony. I shouldn't say 
this to law enforcement personnel, but it works like a traffic 
light. When the light turns red, it signals that your 5 minutes 
have expired. But when it turns yellow first, that means speed 
up. [Laughter.]
    Sheriff Clarke, you may begin.

          TESTIMONY OF DAVID A. CLARKE, JR., SHERIFF, 
        MILWAUKEE COUNTY SHERIFF'S OFFICE, MILWAUKEE, WI

    Sheriff Clarke. Good morning, Mr. Chair, and honorable 
Members of the Committee on the Judiciary. Thank you for the 
opportunity to state my view, which is backed by 37 years of 
experience from ground level concerning police accountability, 
aggression toward police, public safety concerns, and what 
might be the right thing for us to work on now.
    Since the events that led to riots in Ferguson, Missouri, 
police use of force has become scrutinized nationally. Police 
use of force should be scrutinized--locally, that is. It should 
be examined in terms of factual data and circumstances that led 
to the police action and not from the emotional foundation of 
false narratives or catchy slogans like, ``hands up, do not 
shoot,'' ``no justice, no peace,'' or ``Black lives matter.'' 
Let us leave that conduct for the public to engage in, not the 
mainstream media or those elected officials who cannot resist 
the opportunity to exploit the emotions of an uninformed or 
misinformed public simply for political gain.
    We will no doubt hear a lot of statistics thrown about 
today, some distorted to achieve a predetermined agenda. Others 
are legitimate.
    In 2013, the U.S. Department of Justice under Attorney 
General Eric Holder did a study in conjunction with the 
National Institute of Justice on traffic stop data. They found 
that when you use control factors that statistics and research 
require for legitimate findings, any racial disparities are 
attributed to differences in offending.
    The studies show that Black drivers violated speeding and 
other traffic laws at much greater rates than Whites. That 
conclusion of the study under an Eric Holder-led DOJ might be 
ugly to some, but is what the data and research have found.
    That same study showed that three out every four Black 
drivers said the police had a legitimate reason for stopping 
them.
    The same is true in arrest and incarceration data for 
African-American males. Participation rates in violent crime 
explain the disparity of why so many Black males are locked up 
in prison. Black makes are disproportionately involved in 
violent crime, and this violence is predominantly perpetrated 
against other Black people. It is not the result of a 
discriminatory criminal justice system.
    Blacks make up 37.5 percent the prison population at the 
State and Federal level. If we release those convicted on drug 
charges alone, the percentage of Black males in prison would 
drop to 37 percent, a mere one-half of 1 percent. So much for 
the myth of Black males filling our prisons merely for drug 
convictions, not to mention that illegal drug use is the 
scourge of the Black community and leads to a great deal of the 
violence that occurs.
    The police use of force data also tells a different story 
than the false narrative propagated by cop-bashers and the 
liberal mainstream media. A recent study that looked into 
police use of force between 2009 and 2012 showed this 
breakdown: 61 percent, or 915 of the 1,491 people who died from 
police use of force were White males, while 32 percent, 481, 
were Black males.
    It is a myth that police kill Black males in greater 
numbers than anyone else.
    Black-on-Black crime is the elephant in the room that few 
want to talk about. We could talk about the police use of 
force, but it does not start with transforming the police 
profession. It starts by asking why we need so much assertive 
policing in the American ghetto.
    Are police officers perfect? Not by any stretch of the 
imagination. Are police agencies perfect? Not even close. But 
we are the best that our communities have to offer.
    Instead, the conversation should be about transforming 
Black underclass subculture behavior. The discussion must start 
with addressing the behavior of people who have no respect for 
authority, who fight with and try to disarm the police, who 
flee the police, and who engage in other flawed lifestyle 
choices.
    Bashing the police is the low-hanging fruit. It is easier 
to talk about the rare killing--fortunately, rare--of a Black 
male by police because emotion can be exploited for political 
advantage.
    The police are easier to throw overboard because they 
cannot fight back politically. This, however, is 
counterproductive and will lead to police pulling back in high-
crime areas where good, law-abiding Black people live. Black 
people will be the losers in all this as violent crime rates 
skyrocket over time. This means more Black crime victims.
    Economist and author Thomas Sowell, a man I admire, said 
this about policing: If people who are told that they under 
arrest, and who refuse to come with the police, cannot be 
forcibly taken into custody, then we do not have the rule of 
law when the law itself is downgraded to suggestions that no 
one has the power to enforce.
    Sowell further pointed out that, for people who have never 
tried to take into custody somebody resisting arrest, to sit 
back in the safety and comfort of their homes or offices and 
second guess people who face the dangers inherent in that 
process--dangers for both the officer and the person under 
arrest--is yet another example of the irresponsible self-
indulgences of our time, unquote.
    Thank you very much.
    [The prepared statement of Sheriff Clarke follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                  __________
    Mr. Goodlatte. Thank you, Sheriff Clarke.
    Mr. Hartley, welcome.

    TESTIMONY OF W. CRAIG HARTLEY, JR., EXECUTIVE DIRECTOR, 
    COMMISSION ON ACCREDITATION OF LAW ENFORCEMENT AGENCIES

    Mr. Hartley. Chairman Goodlatte, Ranking Member Conyers, 
and Members of the Committee, on behalf of the Commission on 
Accreditation for Law Enforcement Agencies, commonly referred 
to as CALEA, thank you for this invitation today to present 
ideas on policing strategies for the 21st century. As a part of 
this discussion, I think it is important to recognize that 
every year, over 1 million police officers dispersed across 
18,000 agencies make over 40 million public contacts, where 
they encounter incredibly sensitive and highly emotional 
situations.
    These interactions result in millions of arrests annually, 
and police use force or the threat of force 1.4 percent of the 
time, using mostly low-level applications. Statistically, this 
is a strong indication to the adherence to the democratic 
principles of public safety service in this country. However, 
this can only occur where there are trusting relationships 
between the community and the police.
    Recently, the country has observed situations where this 
confidence has eroded, resulting in undesirable outcomes. 
Although there is no single solution, CALEA accreditation 
provides a strategy that institutionalizes best practices 
through the application of policing standards. The model 
promotes community confidence and instills accountability 
across all levels of participating agencies.
    About 5 percent of law enforcement agencies participate, 
which equates to a little more than 25 percent of the Nation's 
law enforcement officers working for enrolled agencies. Given 
this level of penetration, the standards serve as a powerful 
tool to influence police policy and practice.
    These standards remain relevant through a dynamic process 
of review by leaders in the public safety industry, which 
include practitioners, academicians, judicial officials, and 
other subject matter experts.
    Additionally, research from leading professional 
associations is leveraged, and the process considers 
information from special interest groups on such topics as 
victims' right and procedural justice.
    CALEA recently launched a review of standards to consider 
findings from the President's Task Force on 21st Century 
Policing and recent DOJ investigations of police agencies, all 
this with a focus on creating service philosophies that balance 
the need for safety and security with constitutionally 
protected rights and freedoms.
    The process of accreditation also focuses on intended 
outcomes. This is accomplished through a sophisticated system 
of linking agency policies to standards, and ensuring practices 
complement organizational directives. It is reinforced through 
data collection, onsite observation, agency reporting, 
community input, and public commission hearings.
    As examples of these standards, participating organizations 
must develop effective citizen complaint procedures. This must 
include investigations of all complaints, including those of an 
anonymous nature. The procedures must establish timelines for 
notification to complainants and result in the posting of 
summary data for public consumption.
    From an operational perspective, integrity in criminal 
investigation procedures is included in the accreditation 
process. This involves accountability with the preservation, 
collection, maintenance, and presentation of evidence. Policies 
related to interviews, lineups, and show-ups must be developed 
and followed.
    CALEA accreditation requires agencies to develop community 
involvement practices to include establishing liaisons with 
community organizations, the involvement of community members 
in the development of policy, and publicizing agency 
objectives.
    Although these are only a few outputs of accreditation, it 
demonstrates how standards address core issues impacting 
community confidence while supporting police as an institution.
    As an association, CALEA supports reasonable legislation to 
improve professionalism in the field of public safety. We 
support the concept of voluntary participation in accreditation 
to promote productive relationships with agencies. We support 
incentives that support agencies pursuing accreditation. And we 
advocate for stronger interaction with other governmental and 
nongovernmental entities for standards development. And we 
value approaches that gradually and systematically transition 
public safety agencies to programming with reasonable 
implementation timelines and technical assistance.
    The more than 1,030 public safety agencies enrolled in 
CALEA accreditation have voluntarily committed to demonstrating 
professional excellence through standards, compliance, and 
assessment. I would encourage lawmakers to support 
accreditation as an important tool for addressing the 
professional delivery of police services as part of 21st 
century policing strategies.
    Thank you, Mr. Chair.
    [The prepared statement of Mr. Hartley follows:]
    
      
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                __________
    Mr. Goodlatte. Thank you, Mr. Hartley.
    Ms. Rahr, welcome.

 TESTIMONY OF SUSAN RAHR, EXECUTIVE DIRECTOR, WASHINGTON STATE 
 CRIMINAL JUSTICE TRAINING COMMISSION AND MEMBER OF PRESIDENT 
          OBAMA'S TASK FORCE ON 21ST CENTURY POLICING

    Ms. Rahr. Mr. Chair, Members of the Committee, it is my 
honor to be invited to testify today.
    I would like you to know a little bit about my background, 
so you can put my comments in context. I started policing in 
1979 as a patrol deputy, and for the next 33 years, I had the 
privilege of serving my community in assignments such as 
patrol, undercover narcotics. I commanded our gang unit in the 
Seattle metropolitan area for 3 years and spent a great deal of 
time working with police conduct cases and training.
    When I retired as the elected sheriff in 2012, I had the 
good fortune of coming to our State's police academy, where we 
train all 10,000 law enforcement officers in the State of 
Washington. I have learned a great deal from those recruits.
    As we embark on this dialogue today, I think it is 
critically important that we consider a wide range of factors 
that impact the environment in which police operate and that we 
consider strategies that are most likely to increase public 
trust and improve public safety.
    I would like to highlight two of these major factors. To 
add to the context, I think we have a tendency to talk about 
the bad apples. I would like to talk about the barrel and the 
people who make the barrels.
    The first factor is the absence of a national coherence in 
policing. We have 18,000 individual police departments, each 
with unique cultures and reflecting the policies and practices 
that are a product of those 18,000 local governments with a 
diverse range of values and expectations. Agency size ranges 
from one officer to more than 34,000 officers. About half of 
those 18,000 agencies have 10 officers or less.
    All of these departments operate in one of our 50 States, 
each with a unique system of justice that dictates how criminal 
cases are initiated, processed, and adjudicated. Although many 
States mandate peace officer certifications and standards for 
hiring and training, most States exert limited control over 
their local law enforcement. Outside of consent decrees and the 
distribution or withholding of Federal funds, the influence of 
the Federal Government on local policing is also limited.
    The bottom line is, there is no single description of 
United States police culture and practice. The environment and 
challenges faced by police departments vary widely, and the 
control and oversight of our police is almost exclusively 
local.
    The second major factor to consider is that police 
departments do not operate independently. In most cities, 
police chiefs are hired or fired by the mayor or another 
elected municipal executive. Most sheriffs are elected by the 
voters that they are sworn to protect and serve.
    When police exert control over citizens, they do so at the 
behest of an official elected by the people. Crime control 
strategies do not emerge in isolation, nor do decisions about 
police accountability. Those decisions are made by 
independently elected officials and prosecutors.
    Too often, the scrutiny of disturbing incidents begins and 
ends with the police department with little examination of 
those factors outside the agency that influence priorities and 
practices.
    The importance of a broader focus of inquiry was 
illustrated in the recent examination into the government 
practices in the City of Ferguson. The findings serve as a 
powerful example of the influence of governing forces outside 
of the police department itself.
    Ideas for improving policing in the 21st century need to 
consider both of these major factors. Most changes in policies 
and procedures must be adopted by local governments in order to 
be implemented. For example, the requirement to use body-worn 
cameras must consider local and State laws related to the 
gathering, management, and disclosure of data, as well as local 
and State laws protecting individual privacy.
    These changes will take time, require a great deal of 
cooperation, and, in some cases, the barriers may be 
insurmountable.
    There are, however, meaningful steps that can be taken at 
various levels of government without changing laws. These steps 
will improve the culture of policing and expand police training 
in ways that contribute to increased public trust and improved 
safety. The recommendations of the President's task force 
contain a full range of actions that can be implemented 
immediately and some that are more long-term strategies.
    One of the areas of focus contained in the recommendations 
relates to the police training. I sent to you a copy of an 
academic report that I co-authored. It was published by the 
Kennedy School at Harvard and published by the National 
Institute of Justice. This paper expounds on the importance of 
addressing the leadership culture in police departments and 
suggests a path toward improving culture through effective 
training. I hope these ideas will be beneficial as this 
Committee explores ways to improve policing in the 21st 
century.
    Thank you very much.
    [The prepared statement of Ms. Rahr follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
              __________
    Mr. Goodlatte. Thank you, Ms. Rahr.
    Mr. Barge, welcome.

 TESTIMONY OF MATTHEW BARGE, VICE PRESIDENT & DEPUTY DIRECTOR, 
            POLICE ASSESSMENT RESOURCE CENTER (PARC)

    Mr. Barge. Mr. Chairman, Ranking Member Conyers, 
distinguished Members of the Committee, my name is Matthew 
Barge. I am the vice president and the deputy director of the 
Police Assessment Resource Center.
    For 14 years, PARC has provided independent counsel to 
upward of 30 police agencies and communities, helping them 
solve problems and incorporate best practices on effective, 
safe, and constitutional policing.
    I want to thank you for the opportunity to appear before 
you today.
    In light of recent events, some have wondered whether local 
police agencies are capable of transforming or repairing trust 
with the communities they serve. I am here to tell you that 
police departments can change and, indeed, are changing. Real 
reform is difficult and messy work, but agencies can put in 
place the systems, the policies, and the culture necessary to 
self-manage the risk of unconstitutional policing and enhance 
community confidence.
    Some agencies affirmatively seek reform. The voluntary 
implementation of PARC's recommendations in Portland, Oregon, 
for example, led to significant decreases in use of force and 
complaints about police, without increases in crime or officer 
injury.
    However, local law enforcement is not always good as self-
identifying problems. I work daily with police officers who 
represent public service at its most selfless and laudable. But 
the departments where they work often resemble what might 
happen if a stereotypical department of motor vehicles ran the 
U.S. military, an inefficient, inept bureaucracy overseeing a 
rigid command and control structure.
    This produces a culture often resistant to new approaches, 
transparency, and real accountability. Where issues fester, the 
U.S. Department of Justice may exercise the authority granted 
by this body to conduct an investigation into alleged patterns 
of misconduct. Where allegations are substantiated, a Federal 
court overseeing a consent decree may result.
    The process is akin to emergency open-heart surgery for 
police departments. It addresses serious systemic issues and is 
used selectively and at critical moments. Currently, DOJ is 
enforcing 10 consent decrees. PARC's executive director is the 
court-appointed independent monitor for one, addressing the 
Seattle Police Department, where I serve as his deputy.
    Regardless of how reform is initiated, the bedrock of 
policing in the 21st century must be a strong, responsive 
relationship between the Nation's police departments and the 
communities that they serve.
    To that end, a common playbook of specific, real-world 
reforms is emerging for promoting public and officer safety, 
efficiency, constitutional rights, and public trust.
    First, officers need more specific guidelines on using 
force in the real world. The bare, often vague requirements of 
courts in this area may work for judges in the comforts of 
their courtrooms, but officers in communities need clearer and 
more pragmatic rules.
    Second, departments need internal mechanisms for critical 
self-analysis. For instance, a standard DOJ consent decree 
reform is the creation of a dedicated board for critically 
evaluating all uses of force so that a department can 
continually update policy, procedure, and training in light of 
real-world lessons learned. Likewise, permanent civilian 
oversight mechanisms can give communities a real-time check and 
important say in how policing is conducted.
    Third, too many agencies have no idea what their officers 
are doing. If data exists on use of force or stop activity, it 
is often inaccurate, inaccessible, or ignored. Policing in the 
21st century needs to take full advantage of the information 
systems that we take for granted in so many other areas of 
public and private life.
    Fourth, in the cities where we work, we continually hear 
from individuals that the weights and burdens of law 
enforcement are not equally shared, and there is some empirical 
evidence to support that proposition. The challenge for police 
departments is to find ways of addressing an issue that, at 
minimum, is deeply affecting the police-community relationship. 
Forward-thinking departments are providing officers with 
training on minimizing the effects of implicit bias and on 
person-based decision making.
    Modern American policing faces an era of unparalleled 
challenges with too many communities viewing the police as 
``them'' rather than ``us.'' The challenge law enforcement 
agencies must embrace is to implement the kinds of common-sense 
steps that might enhance accountability and enhance public 
trust.
    With that, I thank you again for the opportunity to be 
here.
    [The prepared statement of Mr. Barge follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
              __________
    Mr. Goodlatte. Thank you, Mr. Barge.
    Ms. Ramirez, welcome.

TESTIMONY OF DEBORAH A. RAMIREZ, PROFESSOR OF LAW, NORTHEASTERN 
              UNIVERSITY SCHOOL OF LAW, BOSTON, MA

    Ms. Ramirez. Thank you, Chairman Goodlatte, Ranking Member 
Conyers, and the House Committee on the Judiciary.
    The police killing of Michael Brown and Eric Garner in July 
and August of 2014 have triggered protests not only in the 
cities in which those killings occurred, but also throughout 
this country. Since those shootings, there have been others, 
Freddie Gray in Baltimore and Walter Lamar Scott in South 
Carolina.
    It is plain to me, and I expect to all of you here today, 
that these protests are not just about the unwillingness to 
prosecute all but one of those officers for these shootings, 
but about a long, simmering resentment in the African-American 
and Latino communities that the criminal law applies 
differently to them than it does to White Americans; that the 
police too often stop and frisk Latino and African-American 
youths with impunity and without reasonable, articulatable 
suspicions; that automobiles driven by African-Americans, 
especially in White neighborhoods, are too often stopped by 
police for driving while Black; that the death of a Black man 
at the hands of police is seen as more forgivable than the 
death of a White man; that prosecutors are less willing to see 
Hispanic and African-American defendants as candidates for 
rehabilitation who deserve and need a break, and, therefore, 
they are more willing to press for mandatory sentences against 
them; and that more Black men age 18 to 21 are in prison or in 
jail than in college.
    We can and should debate how accurate the statistical 
studies are and how accurate these perceptions are, and whether 
they are more accurate in some States and municipalities than 
in others. But I think we can agree that these perceptions are 
accurate more often and in too many places than we would want 
them to be, and that the perception itself is a reason for 
great concern because, beyond the statistical studies, we 
cannot be one Nation if a significant percentage of our 
community members believe they are receiving an inferior 
quality of justice or no justice at all.
    The protests have provided an impetus for change, but they 
cannot produce change by themselves. We need to ensure that 
these protests are different from previous protests, and that 
they do not merely cry out for justice, but actually lead to 
more justice.
    To accomplish that, we need a roadmap for change. And we 
need to press our leaders in Congress and elsewhere to follow 
that roadmap and travel to a place where justice is more and 
fairer.
    To move past these tragedies, we need to do some concrete 
things. First, we need to strengthen police-community relations 
by creating community-policing models focused on the 
development of partnerships between police organizations and 
the communities they serve.
    How? New infrastructure and architecture. Infrastructure 
and architecture that might provide the coherence we need and 
the coherence we need to bring to this enterprise. We need to 
create in every State federally funded community-policing 
institutes dedicated to creating the tools, templates, 
training, and best practices for bringing the police and the 
community members to the table for discussions on how best to 
keep their communities safe and strong.
    And we need to increase police transparency by letting the 
public know what the police are doing, and that can only occur 
when State and local police departments are required to keep 
data regarding police stops, searches, and shootings, and to 
record the race of persons stopped, searched, or shot. Why? 
Because you cannot possibly manage what you do not measure.
    Transparency also means requiring police to install cruiser 
cameras, to wear body cameras, and to monitor police discretion 
to turn those cameras off.
    My last point is about accountability, which means that 
allegations of police misconduct or situations in which a 
police officer shoots a civilian should be handled by an 
independent inspector general. The investigation and 
prosecutorial decision should not rest in the hands of a 
district attorney dependent on that police department for its 
criminal investigations, past and future.
    So we need police-community partnerships, a State institute 
to support them, cameras, data collection, and an independent 
inspector general to investigate police misconduct.
    The roadmap does not end here today at this table. The next 
part is the most difficult. How do we implement it? The system 
is broken. We need Democrats and Republicans to come together 
to craft a roadmap to justice and figure out how to fund and 
implement it. Only then will we be able to create stronger and 
safer communities.
    [The prepared statement of Ms. Ramirez follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                  __________
    Mr. Goodlatte. Thank you, Ms. Ramirez.
    I will begin the questioning and start with you, Sheriff 
Clarke. When you talk with citizens, do they want more or less 
of a police presence? Do they complain more about the actions 
of the police or about the inactions of the police?
    Sheriff Clarke. They ask for more. They complain about 
both, and I think that is human nature. They want safer 
neighborhoods. They want safer communities. They know they are 
going to have to have assertive policing in some of these high-
crime areas to get that done.
    It is situational. They complain about slow calls for 
service responses, things like that, which can have an effect 
on a person's trust in their law-enforcement agency. In other 
words, we call but they do not come.
    So it is fluid and, like I said, situational. We deal with 
it on a situational basis.
    Mr. Goodlatte. Do your officers generally feel--I don't 
know what the right word is--welcome, comfortable in these 
tougher communities to the police?
    Sheriff Clarke. Without a doubt. It is one of the 
hallmarks, I believe, of my administration to create a 
relationship. When we talk about trust, I believe, in the 
Milwaukee area anyway--that is what I can speak to, 
personally--there is a great relationship. We, meaning law 
enforcement officers, do not have a great relationship with the 
criminal element. There is no doubt about that. But I think 
sometimes, this--I believe it exists, this lack of trust within 
segments of the community, but not as a whole within the 
minority community. I bristle at that perception.
    Mr. Goodlatte. Good. I am glad to hear that.
    Mr. Hartley, you wrote in your testimony that only 5 
percent of the Nation's law enforcement agencies participate in 
accreditation. That really surprised me.
    What is the biggest obstacle you face in terms of getting 
other agencies accredited? Is it leadership, cost, or something 
else?
    Mr. Hartley. I will tell you, I think it is a combination 
of all those things. I think it really starts with the 
leadership prerogative about what those organizational leaders 
think is important to them and the delivery of leadership 
across their organizations.
    We do hear concerns that the cost of accreditation is too 
much. We also hear that the in-kind cost associated with 
involvement in the process is difficult because our 
accreditation process requires them to do things that they 
otherwise may not do.
    I can tell you that the process is really structured around 
key and fundamental, sound principles of police service 
delivery. So the process of accreditation does not increase the 
accountability that is already there. It measures 
accountability and serves as a yardstick and a framework to 
keep organizations focused on key and fundamental areas.
    But again, it does relate to cost in some cases and in-kind 
services and management of the process, Mr. Chair.
    Mr. Goodlatte. Thank you.
    Ms. Ramirez, is there a problem with current legal 
precedents as they relate to use of force? Does it result in 
second-guessing of officer decisions?
    Ms. Ramirez. I am sorry, is the question whether or not----
    Mr. Goodlatte. I will repeat it.
    Is there a problem with current legal precedents as they 
relate to use of a force? And does it result in second-guessing 
of officers decisions?
    Ms. Ramirez. I do not think this is primarily a legal 
problem. I think it is a problem with the community not fully 
understanding all of the pressures, procedures, protocols that 
the police are engaged in, and the police not discussing and 
educating the community about the things that the police have 
to take into account as they go through a stop-and-search 
process.
    But I do not believe this is a legal problem. I think it is 
a training problem. I think it is a problem that would be 
solved with better community policing.
    Mr. Goodlatte. Thank you.
    Mr. Barge, I will let you answer that same question, but I 
also want to add, you mentioned in your testimony that after 
your organization was called into Portland, there was a sharp 
drop in officer-involved shootings, use of force, and citizen 
complaints without any increase in officer injuries. What do 
you think most directly causes that?
    Mr. Barge. As a legal precedent question, I think that, as 
I said in my testimony, judges and courtrooms use a very 
different set of rules to guide fair and efficient decision 
making. Officers on the street, I think as all of us can attest 
to, you do not have the luxury of examining all of the facts as 
they turned out to be and have to make split-second judgment 
calls.
    So I think one thing police agencies can do right now is to 
ask themselves, how do I want our police officers to react in 
these emerging use of force situations, and craft more 
specific, clearer guidance where appropriate, and hold their 
officers rigorously accountable to those policies. The policies 
can do what the courts cannot as a condition of an officer 
being employed in that department.
    As to Portland, I think that what we did there was to 
institute a number of reforms that are very tested. They have 
been implemented in places where the DOJ has gone in the 
consent decree process. And in Portland, we had an opportunity 
to implement those reforms in a voluntary capacity. The city 
wanted us there, and the police department wanted us there.
    It was about instilling mechanisms whereby the police asked 
themselves difficult questions, asked what we could learn from 
incidents that went wrong, asked what we could do differently 
in the future.
    I think that kind of culture, just by the numbers the city 
auditor found there, really changed the department for the 
better.
    Mr. Goodlatte. Thank you very much.
    The gentleman from Michigan, Mr. Conyers, is recognized for 
his question.
    Mr. Conyers. Thank you.
    I appreciate the different contributions from each of the 
five panelists, and I think we are off to a good discussion.
    I would like you to know that thanks to the Chairman and 
Mr. Scott and Mr. Sensenbrenner, we have been having hearings 
about overcriminalization. They started out for 6 months, and 
Chairman Goodlatte added 6 more months to it, it was so 
effective. This moves us further along.
    But the fact of the matter is, how do we change this 
culture? This goes back a long ways. This isn't a recent 
phenomenon at all.
    So I am thinking about how we get into this infrastructure 
and architecture that we are trying to move to, and I would 
like to look at that for just a moment.
    But before we do, I would like to raise the question of 
police prosecutions. We all know the conundrum. The prosecutor 
and the police work together much of the time, and then all of 
a sudden, the prosecutor has to decide whether to prosecute one 
that he has been working with a long time.
    Professor Ramirez and any of the rest of you, please, let 
us look at that for a moment.
    Ms. Ramirez. As a former Federal prosecutor, I have worked 
with law enforcement, and I know firsthand the difficult and 
dangerous work that they do. But I also believe that when there 
has been a civilian who has been shot or police misconduct, it 
is very hard for a prosecutor who works day in and day out with 
these law enforcement officers, and knowing that they worked 
with them in the past and the future, to make an independent 
decision, which is why I think we need a process different from 
the process that we have now. So I talk about having an 
independent inspector general make the decision.
    Mr. Conyers. Yes.
    Ms. Ramirez. But also, we need more transparency in the 
decision-making process. So right now, we have a secret grand 
jury process. Maybe we need something more like an inquest 
process or some kind of new process in which, in these 
instances, we can develop a way to be more transparent about 
that pretrial investigation that takes place now by a 
prosecutor in the grand jury context.
    And I wanted to say one more thing about reducing use of 
force. The studies have shown that in departments where they 
have used cameras, body cameras and cameras in the car, that 
there has been a significant decrease in use of force, and it 
gives us the opportunity to learn from the recorded instances 
about best practices for deescalation.
    So when we have cameras and there is an incident, whether 
the officer succeeded or failed to deescalate, we can learn 
more about it.
    Mr. Conyers. All right. What has been your experience, sir, 
in terms of this problem? More or less, where do we go from 
here?
    Mr. Hartley, what do you think?
    Mr. Hartley. As it relates to prosecution of police 
officers?
    Mr. Conyers. No, we can go wider than that.
    Mr. Hartley. I think to just kind of parlay that discussion 
into a little more broad sense, I think the most important 
thing for any organization to do is to prepare for that bad 
event.
    We know that regardless of the best planning, you are still 
going to have people that are engaged in fundamental decisions 
around the enforcement of law that have impacts on communities. 
But the reality of it is that if the preparation takes place in 
the proper way with the proper folks around the table, it 
relieves those expectations of negativity, if you will, and it 
promotes organizational confidence in how the process will be 
managed.
    I do not feel comfortable saying that one size fits all for 
each agency, because I think each jurisdiction brings on 
different attributes that has to be considered in the 
development of those types of things.
    Mr. Conyers. Of course.
    Mr. Hartley. But for the public's consideration and for the 
officers' consideration, confidence in the process is 
important, and it has to do with planning for the event from 
start to finish and include community contacts, media 
engagement, and other processes related to the legal system.
    Mr. Conyers. Thank you very much.
    Ms. Rahr, just in closing, do you see some hope in 
President Obama's recent statements on the subject, when he was 
in Camden yesterday?
    Ms. Rahr. I do. I think that there are a number of 
recommendations that will be helpful to every police department 
in the Nation. For some departments, they will be able to 
follow many of those recommendations. I hope that, as time goes 
on, the distribution of Federal funding and resources will take 
into account the cooperation of agencies that are doing their 
best to follow those recommendations.
    Mr. Conyers. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman.
    The Chair recognizes the gentleman from South Carolina, Mr. 
Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Professor Ramirez, you mentioned a couple of cases in your 
opening statement, and I know that time is short when you only 
have 5 minutes, and you were not able to address other cases. I 
wanted to ask you whether or not you were familiar with a few 
other cases.
    Sandy Rogers and Scotty Richardson from Aiken, South 
Carolina, are you familiar with that case?
    Ms. Ramirez. No, sir.
    Mr. Gowdy. How about Roger Dale Rice from Laurens, South 
Carolina, are you familiar with that case?
    Ms. Ramirez. No, sir.
    Mr. Gowdy. Eric Nicholson or Marcus Whitfield from 
Greenville, South Carolina? Are you familiar with that case?
    Ms. Ramirez. No, sir.
    Mr. Gowdy. Russ Sorrow from Greenville, South Carolina?
    Ms. Ramirez. No, sir.
    Mr. Gowdy. Or Kevin Carper from Spartanburg, South 
Carolina?
    Ms. Ramirez. No, sir.
    Mr. Gowdy. Professor, those are just a handful of the more 
than 340 police officers who were killed in the line of duty in 
South Carolina. And Kevin Carper's case is most instructive 
because his partner did CPR on the suspect that killed Kevin, 
trying to save his life.
    Let me ask it another way. Are you familiar with the case 
of Ricky Samuel?
    Ms. Ramirez. No, sir.
    Mr. Gowdy. How about Tamika Huston?
    Ms. Ramirez. No, sir.
    Mr. Gowdy. How about Nell Lindsey?
    Ms. Ramirez. No, sir.
    Mr. Gowdy. Miranda Auell?
    Ms. Ramirez. No, sir.
    Mr. Gowdy. Santiago Rios?
    Ms. Ramirez. No, sir.
    Mr. Gowdy. Those are all folks that were the victim of 
intraracial homicides in South Carolina. And I hasten to add, 
there were not protests either with those police officer 
killings or any of the intraracial killings.
    And I suspect you agree with me, Professor, that all lives 
matter. Whether you are killed by a police officer or your 
next-door neighbor, you are every bit as dead, aren't you?
    Ms. Ramirez. Yes, sir. I, actually, as a former prosecutor 
and someone who has worked with police officers, have the 
deepest respect for them.
    Mr. Gowdy. So do I. And despite that deep respect, 
Professor, I still maintain the objectivity of prosecuting 
police officers who engaged in misconduct. We have a process in 
place, if you don't think you can be fair. It is called 
recusal, which is what some of us did in every single one of 
our officer-involved shootings. We recused it to another 
prosecutor, so he or she could make that decision.
    So there is a process in place. You called for a process. 
There is one. It is called recusal.
    Do you know, as a former prosecutor, or can you deign, what 
may have been the biggest impediment to our being able to 
successfully prosecute homicide cases, particularly homicide 
cases involving victims of color? In my criminal justice 
jurisdiction, do you know what the biggest impediment was?
    Ms. Ramirez. In Massachusetts, one of the biggest 
impediments is trying to get witnesses to come forward.
    Mr. Gowdy. You are exactly right. You are exactly right. 
You have a victim of color and we had trouble getting witnesses 
to cooperate with law enforcement and prosecutors, which then, 
as you know, diminishes the quality of that case and your 
ability to prosecute it, which may result in a lesser plea 
bargain because you do not have the facts, which may then 
result in what you said in your opening statement, which is 
people have a tendency to treat Black lives differently than 
White, when the reality is the case wasn't quite as good. Isn't 
that a possibility, too?
    Ms. Ramirez. For every prosecutor who is out there, this is 
a serious problem, and you are correct in pointing that out, 
sir.
    Mr. Gowdy. Right. And it wasn't just me pointing it out, 
Professor. I happened to have a fantastic chief of police when 
I was the D.A., fantastic man by the name of Tony Fisher, who 
happened to be an African-American chief of police. And he 
lamented the exact same thing you and I are talking about.
    It is the loss of life in his community and the refusal of 
people to cooperate, even in a drive-by shooting of an 8-year-
old at a birthday party, a drive-by shooting outdoors where the 
whole world saw the car drive by, and nobody would cooperate 
with the prosecution in the murder of an 8-year-old.
    So I hope that part of this 21st century police strategy 
conversation that we are having includes getting people to 
cooperate with law enforcement, so you can hold people to the 
exact same standard regardless of the race of the victim.
    And I want to say this, too. I want to thank my friends 
Cedric Richmond and Hakeem Jeffries and others who are working 
on this issue, because they want a justice system that is 
colorblind. After all, it is represented by a woman wearing a 
blindfold, so let us go ahead and make it colorblind. And both 
of those guys have worked really, really hard and will continue 
to do so, because let me tell what you my goal is. My goal is 
for witnesses to feel comfortable cooperating.
    But here is my other goal, and I am out of time but I am 
going to share it with you. I want to get to the point where we 
lament the death, the murder of a Black female like Nell 
Lindsey just as much if it is at the hands of an abusive 
husband, which it was, as we would if it would have been at the 
hands of a White cop. I want to get to the point where we are 
equally outraged at the loss of life, and I hope we can get 
there.
    With that, I would yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from Texas, Ms. Jackson Lee, for 5 
minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much. And 
let me thank both you and the Ranking Member, my Ranking 
Member, for listening and engaging and leading. And I was 
delighted to participate in the process.
    And I would like to say to my colleagues that this effort 
of criminal justice reform is going to be a Committee effort. 
Every Member's input and assessment and analysis and 
legislative initiatives will stand equal, I believe, in the 
eyes of the Ranking Member and the Chairman and, certainly, 
those of us who serve as the Chairperson and Ranking Member of 
the Crime Subcommittee, as I do.
    America will not be responded to unless this Committee 
works together, and that our efforts are in unison and 
collective, responding, of course, to the many witnesses that 
will come before us.
    So this is the first hearing, and I think America should 
recognize the very large step that we are making.
    Sheriff Clarke, let me thank you for your service. We may 
agree to disagree, but there is no disagreement with your 
service and the sacrifice that you represent. As you indicated, 
we met a couple of weeks ago.
    Just May 15, I was on the west side of the campus of this 
great Congress, dealing with the many families who had lost 
loved ones in law enforcement. So my tone today will be that we 
do ill when we take each other's pain lightly. The pain of 
``Black lives matter,'' the pain of ``hands up, don't shoot,'' 
the pain of ``I can't breathe.'' That is pain.
    And it is equally the pain of Mr. Geer who was on the steps 
of his house August 2013 and was shot in Virginia. He happened 
to be an Anglo or Caucasian male.
    What we have to do to make a legislative step of monumental 
change that gives our officers the confidence of their work, 
further enhance their training, is to be able to work together. 
My line of questioning will be how do we fix these problems and 
how do we get the 5 percent number, that is a lot of officers, 
to be 25 percent, 50 percent accreditation. That is what the 
American people, I think, are looking at.
    I do not want anyone's pain to be diminished, and I sit 
here today recognizing that pain.
    So let me just quickly say this regarding statistics. James 
Comey, the director of FBI, said the following about the 
Uniform Crime Report, the now 3-year-old source that was cited 
in the sheriff's testimony. He said the following, the 
demographic data regarding officer-involved shootings is not 
consistently reported to us through our Uniform Crime Reporting 
program. Because reporting is voluntary, our data is incomplete 
and, therefore, in the aggregate, unreliable.
    Mr. Hartley, I have thought that data is important, 
introduced a bill called the CADET bill to gather statistics of 
shootings by police and by individuals against police, because 
I believe in fairness.
    So if this was required, would that be an asset to CALEA, 
as you do your scientific work, of providing insight for 
training?
    Mr. Hartley. Ms. Jackson Lee, let me first start by saying 
that I think data helps drive decision making, and it helped 
drive it in an important way because you do not know what you 
do not know sometimes. And what we find is organizations that 
engage with CALEA in accreditation discovered data in the 
process that really helps them make fundamental decisions that 
drive the organization in a responsible way toward community 
service.
    Ms. Jackson Lee. Do you have enough money to accredit all 
of the police departments across America? Would you need some 
incentivizing, some funding to help you do that?
    Mr. Hartley. Well, we do not need the incentivizing or 
funding to help that occur, but those organizations sometimes 
do. Organizations that participate with us range in size from 
10,000 to 10.
    Ms. Jackson Lee. So funding to them would be a helpful 
component of police accountability?
    Mr. Hartley. I think that would support agencies in this 
mission.
    Ms. Jackson Lee. I have a series of questions. On the CALEA 
standards for body cameras, police arrests and transport, and 
independent review of lethal force by law enforcement, are 
there standards--that is the question--on body cameras, police 
arrests, and transport?
    One of the issues I am concerned about, because when the 
issue came out in Baltimore, it wasn't sort of put aside, 
police departments were saying all over, you know what, those 
are some of the things we do.
    But do you have standards on that and use of lethal force?
    Mr. Hartley. We do have standards on all of those subjects. 
The one related to transport didn't particularly address the 
issue faced in Baltimore. However, there is a standard that 
encourages the safe transport of individuals, regardless of the 
type----
    Ms. Jackson Lee. But we need to help to enhance that and 
make that a noticeable part of policing across America.
    Mr. Hartley. Well, I think that standards themselves are a 
dynamic, living tool. I think as we encounter new issues, and 
we certainly will, we have to be prepared to make adjustments 
in those standards to address those issues.
    Ms. Jackson Lee. May I quickly ask you, Ms. Rahr, you have 
written about the obstacles of implementing changes in training 
programs, particularly opposition from those wedded to the 
status quo. Can you explain that? And can you also add to your 
conversation?
    I do not want any police officer to not go home to their 
family. That is a mantra that we all stand by, you know, 
everyone says, we have great relationships. I am a big believer 
in community-oriented policing. The father of community-
oriented policing lives in Houston, Lee Brown.
    But could you comment on that, and the idea of deescalation 
in training and how that impacts on police interaction?
    Mr. Goodlatte. The time of the gentlewoman has expired, but 
the witness will be allowed to answer the question.
    Ms. Jackson Lee. Thank you, Mr. Chairman. It is a very 
exciting hearing. It generates a lot of questions. Thank you.
    Ms. Rahr. Thank you, sir.
    I have described the philosophical shift that I have been 
promoting for a couple of years as moving our culture closer to 
a guardian mentality rather than a warrior mentality. I believe 
the warrior mentality was a result of a political movement that 
started in the 1960's when we declared war on crime, war on 
drugs, war on all sorts of things. The police agencies across 
this Nation responded, as they do to their political leadership 
in their communities.
    What I am trying to do is help our new police officers find 
the right balance, because officers absolutely must have keen 
warrior skills and they must be able to use them without 
hesitation or policy. But I want them to consider their role 
within our democracy, and that role needs to be the role of a 
protector with the goal of protecting people rather than 
conquering them.
    When you try to initiate this type of a mindset shift, 
there is naturally going to be resistance. The greatest 
resistance I have encountered is just the misunderstanding of 
what I am talking about. When I have the opportunity to explain 
it in more depth, most officers will say to me that is how good 
cops have always done it.
    I want our recruits on their first day on the street to 
have the wisdom of a good cop with 20 years' experience.
    Mr. Goodlatte. The time of the gentlewoman has expired.
    Ms. Jackson Lee. Thank you. I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Michigan, Mr. Bishop, for 5 minutes.
    Mr. Bishop. Thank you, Mr. Chairman.
    I would like to thank the panel for your testimony today. 
Grateful for the time you have taken to be with us today.
    Sheriff, I had an opportunity to speak with the law 
enforcement community in my community, and I did a roundtable 
discussion. I had an open dialogue about the events of the day 
and some of the concerns that have been raised in this very 
discussion.
    They were concerned, as well, about some of the bad actors 
in their own rank and file that we have been seeing around this 
country and very concerned about it, but also were adamant 
about the fact that they express that the vast majority of the 
officers they work with, the emergency response personnel, are 
hardworking, good professional people who are there for a 
common purpose, and that is to serve the public.
    They are concerned that that does not resonate, that we see 
more now about the bad acting, some of the negative that has 
gone on out there. And it is important we identify and we deal 
with that and we not tolerate it in any way, shape, or form. 
But it is also important that we do whatever we can do to 
really rally behind those who have given so much in the law 
enforcement community.
    I think I would really like to know from you, what is going 
on with the morale of the law enforcement community? Are you 
having problems with recruitment and retention of officers as a 
result of all that has gone on around the country?
    Sheriff Clarke. Mr. Chair, Congressman, we are at a tipping 
point, and it is something that I expressed not too long after 
what happened in Ferguson, Missouri, about the psyche of the 
American police officer who watches these things go on, just 
like anybody else does. And the constant bashing and maligning 
of the profession is starting to take its toll.
    I just spent this week in the D.C. area for the National 
Law Enforcement Officers Memorial week, police week, if you 
will. And I talked to law enforcement officers from across this 
country, and the one common theme I heard from them, first of 
all, their mindset is they are beleaguered right now. But the 
common theme that I heard is, you know, Sheriff, I do not know 
if I want to continue to take that extra step anymore, because 
I do not want to be the next Darren Wilson. I do not want to be 
the next, you know, officers in Baltimore or New York or 
anywhere, because they, in a good faith effort--we are talking 
about the good faith action of law enforcement officers. We 
operate in an environment of chaos and uncertainty when we get 
sent to these calls.
    Sometimes in this imperfect world, things can go horribly 
wrong, which they did in Ferguson, Missouri. I am not going to 
get into whose fault that was, but something went horribly 
wrong.
    But some of the best law enforcement work that goes on all 
across the country is called self-initiated. It is not the call 
for service. When an officer gets sent to a call for service, 
something already happened. It is reactive. The crime already 
occurred. But the self-initiated policing is when that officer, 
that man or woman, uses their experience, their sixth sense, if 
you will, their street sense, that criminal activity may be 
afoot. And they establish the reasonable suspicion so they can 
make that stop consistent with our Constitution, and they go 
and investigate. They pull that car over, or they go and what 
we call, you know, stick up a group of individuals hanging on a 
corner or casing an area, so to speak, and we start to 
investigate.
    In self-initiated policing, you are going to find the guns 
that are being used to transport to and from drive-by 
shootings. You are going to find prohibited persons with 
firearms. You are going to find drugs. You are going to find 
people wanted on serious felony warrants, through self-
initiated policing.
    When that starts to fall off, and there will be a lag time. 
This won't happen overnight. The cops in this country aren't 
going to quit. But over time, when they start to worry, they 
look and they see that suspicious vehicle or they see that 
suspicious individual and say, maybe not today, I do not want 
this thing to go haywire on me and, next thing you know, I am 
one of those officers who becomes a household name in America.
    That is going to be a lag time, okay. I do not like to 
create hysteria. But over time, I think it is going to have an 
effect on crime rates in those communities that need assertive 
policing the most, and that is our minority communities.
    Mr. Bishop. Thank you, Sheriff.
    I guess my time is up, Mr. Chairman, so I would yield back 
the balance.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from New York, Mr. Nadler, for 5 
minutes.
    Mr. Nadler. Thank you.
    Before I ask the question, let me just make an observation. 
Sheriff Clarke talked about the sixth sense, about taking that 
extra step. Sometimes taking that extra step is very necessary, 
but sometimes we maybe want the officer not to take that extra 
step. Maybe that is sometimes the problem and that leads into 
the question of changing police culture, which Ms. Rahr talked 
about.
    Ms. Rahr, what is the greatest challenge in changing police 
culture?
    Ms. Rahr. I think the greatest challenge is recognizing 
that we have a real variety of cultures already existing across 
the country. When officers come to begin their career of 
service, most of them come to the table with the goal of doing 
something good, doing something to benefit the community. And 
then they are confronted with the realities of trying to do 
those good things.
    As a result, sometimes they take on a tougher persona, and 
they may lose sight of their original reasons for coming in the 
door.
    I think we need to work harder within the agencies, the 
leadership within the agencies, to support our police officers, 
make sure that they are healthy both mentally and physically, 
and that they feel supported by the agency. If an officer does 
not feel support inside their agency, they are not going to be 
willing to take a risk and try something different. They are 
not going to be willing to take as much of a risk to go out on 
a limb to protect someone.
    I think the internal culture of policing is absolutely 
critical. And when that is strong and healthy and confident, 
officers will be willing to try something different.
    Mr. Nadler. And what, if anything, can we in Congress do to 
help this change?
    Ms. Rahr. I would love to see Congress provide funding for 
improved training. I will just cut right to the chase.
    There are a number of excellent programs already in 
existence that could literally transform the profession of 
policing in this country.
    I have been involved for the last couple of years with a 
program called Blue Courage, and that program seeks to support 
police officers, build their pride, build their sense of high 
morale, and especially assist them in seeing their appropriate 
role as the guardian in democracy. That program costs money, 
and agencies that want to acquire that training have to pay for 
an officer on overtime to fill the districts.
    Mr. Nadler. Appropriating money for training. Anything 
else?
    Ms. Rahr. Besides training?
    Mr. Nadler. Besides money?
    Ms. Rahr. Oh, besides money, I am sorry. I think just the 
recognition that individual police agencies need to be 
supported. There is not going to be a one-size-fits-all Federal 
solution to this.
    Mr. Nadler. Thank you very much.
    Professor Ramirez, all over the country, we have had a 
number of problems, obviously, with violence against citizens 
who turned out not to have weapons or be guilty of anything. 
And sometimes the police officer gets prosecuted. Sometimes the 
police officer does not. Sometimes people are happy with it. 
Sometimes they are not. We have seen these controversies.
    And, of course, it has been suggested that the D.A.s are 
too close, they have to work day-to-day with the police 
officers. They are too close to make that decision without 
being thought partisan, whether they are or not.
    Should we have a law or regulation that mandates a special 
prosecutor or special master for investigations of police 
officers on the grounds that the D.A.s are, in fact, too close 
to do this fairly? Would that be a good idea?
    Ms. Ramirez. I think it would be a good idea.
    Mr. Nadler. Would that enhance community confidence and 
impartiality? And what are the negatives on it?
    Ms. Ramirez. Yes. While we do have a recusal system, that 
recusal system is now in the hands of the district attorney, so 
the district attorney in Ferguson did not recuse himself. And I 
think having laws and a process would create more legitimacy 
and more transparency to the public.
    Mr. Nadler. Thank you. Also, Professor, what is the 
greatest impediment to prosecuting police officers who violate 
constitutional rights of individuals in their official 
capacity? Obviously, we do not do--what is it? 18?--deprivation 
of civil rights under the color of law very often by law 
Federal Government.
    So what is the greatest impediment to prosecuting police 
officers who ought to be prosecuted, and there are some, 
obviously?
    Ms. Ramirez. I am someone who has prosecuted police 
officers. I would say that the first impediment is that, in a 
prosecutorial office when you work with police, when you work 
with law enforcement, it is very hard to decide to prosecute--
--
    Mr. Nadler. What we talked about in our previous question?
    Ms. Ramirez. Right.
    Mr. Nadler. Okay, because my time is running out, 
obviously, there have been a lot of controversial encounters, 
in some of which police officers were prosecuted and others in 
which they weren't, sometimes the D.A. was excoriated for 
prosecuting, sometimes for not prosecuting. Would it be better 
for the sense of justice on the part of relatives of victims, 
would it be better for the police officers who could be 
exonerated by this, if police officers used body cameras all 
the time whenever they had such an encounter?
    Ms. Ramirez. I think cameras are critical at this juncture, 
and we know that four things happen when you put cameras in 
place, because we have done research on this in both Great 
Britain and in this country when cameras were used.
    First, the use of force diminishes, and that is important, 
because police officers know they are being recorded during an 
incident.
    Second, complaints against police officers diminished 
significantly, which reduces the cost and process of 
adjudicating these incidents after the fact and trying to find 
facts.
    Surprisingly, the third thing is that there has been an 
increase in successful prosecution of domestic violence, 
because the police can record on the scene at the time what 
happened.
    The fourth thing that would be very helpful in moving the 
police culture from a warrior culture to a guardianship culture 
is that you could begin to have guardianship metrics. The 
current metrics are warrior metrics. How many people did you 
arrest, search, seize? How many guns did you seize? How many 
drugs did you seize?
    If you had cameras, you could begin to do two things. You 
could begin to evaluate officers on guardianship values. You 
could look at every 100th tape and say, was this officer 
respectful? Were they courteous? Did they follow procedures? 
Did they try to deescalate?
    Finally, it serves as an early warning system to the 
police, because if you are watching on a regular basis randomly 
some of these cameras, you will discern who are the bad apples 
who have anger management issues and other issues.
    Mr. Nadler. Thank you. I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman. You know, Mr. 
Chairman, to paraphrase the poet, we sleep safe in our beds at 
night because rough men stand ready to visit violence on those 
who would do us harm. And, certainly, I believe that the people 
that wear the uniform, the many women that wear the uniform, 
fit in that paradigm very well, because unless there are those 
that are willing to stand between the innocent and the 
malevolent, then the malevolent will prevail. I think that 
those who wear the uniform and place themselves in those 
dangerous positions are among the most noble figures in our 
society.
    And, Sheriff Clarke, I heard you on one of the television 
interviews and was so struck by your clarity and your eagle-
eyed approach, and I thought this gentleman personifies that 
nobility that we talk about. And I really think that my 
children and the children of this country have a safer, more 
hopeful future because of people like you.
    So I would suggest to you that others have come to the same 
conclusion. That might be why you are here in this hearing this 
morning.
    My question is first for you, have the recent events and 
the press response to those events had any kind of impact on 
your officers or made them more likely to employ strategies and 
tactics that might actually compromise their safety or the 
safety of the community?
    Sheriff Clarke. Mr. Chair, Congressman, without a doubt, it 
is part of the tipping point that I talked about. You know, we 
need balance in this, obviously. And even if we find balance, 
maintaining it is going to be even more difficult. An officer 
delaying that thing that is telling him or her to do a certain 
thing that does not happen may cost them their lives.
    But let me say this about the use of body cameras. I am for 
this, the use of this technology. I think it is a force 
multiplier. It can only help.
    But what I have been advising, I think we are rushing into 
this, because we are going to end up with the law of unintended 
consequences. There are some privacy issues involved. It 
potentially could lead to fewer people wanting to come forward 
and cooperate with the police, especially in our minority 
communities where cooperating with police can lead you to a 
very bad conclusion. You do not want to be seen doing that. You 
do not want to be videotaped cooperating with the police. So we 
need to think about what impact it will have on witnesses 
wanting to come forward or even calling to report crime.
    And I just want to close by saying that the use of body 
cameras and the early evidence that it is leading to fewer 
complaints and fewer instances of force, there is evidence to 
suggest this, not to show it, that that isn't just the result 
of the officer knowing that someone is watching. It is also 
letting the person who the officer is dealing with know, if I 
make a false complaint against this officer, it is going to be 
on video. And that could lead to a decrease in complaints as 
well. So I do not want everybody to presume that it is because 
the officers are being watched, that they are changing their 
behavior.
    And the same with suspects. They know they are being 
videotaped. Maybe they are less likely to fight the police and 
engage in some of that behavior as well.
    So that is why I say I support that, the use of those body 
cameras. But there are some things associated with it that have 
not been flushed out yet. I just say, let us not rush into this 
because it is not a panacea.
    Thank you.
    Mr. Franks. Thank you, sir.
    Ms. Rahr, in your testimony you discuss the absence of a 
national coherence in policing. I wonder how you would propose 
to implement national policing standards while still ensuring 
that local police departments maintain the autonomy necessary 
to be relevant and effective in their own jurisdictions?
    Ms. Rahr. Sir, I haven't suggested national standards. What 
the task force worked on were recommendations to provide 
guidance and to provide more support for police departments. I 
do not think we will ever come to a place where we have 
national standards for police policies and procedures. There 
are just too many different variables in each community.
    Mr. Franks. Well, Mr. Chairman, I would just suggest, sir, 
that while I think everyone sees our police force, in general, 
as guardians, I am thankful that there are enough warrior 
mentality among them to hold back those that would desecrate 
the innocents. And I would yield back with that.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Tennessee, Mr. Cohen, for 5 
minutes.
    Mr. Cohen. Thank you, Mr. Chair. And I want to thank you 
for holding this hearing. It is most important.
    And I want to say on the front end, I started my legal 
career, I was a lawyer, as the attorney for the Memphis police. 
I spent 3 1/2 years working for the police, and I understand 
policing and appreciate policing, and know it is essential for 
an ordered liberty and a society that has on the frontlines men 
and women willing to risk their lives.
    And I have great respect for Mr. Gowdy and I am happy he is 
back here. He mentioned that he looks for the day that we rue 
the death of the lady, I forget her name, who was apparently 
killed by her husband in a domestic violence situation, the 
same as we rue the problems when a White policeman kills a 
Black citizen.
    And I would have to say, with great respect for Mr. Gowdy, 
there is a big difference. One is a private tragedy; the other 
is a public tragedy, because it is under color of law. And 
while we would like to see no crime whatsoever--and that would 
be wonderful--we can only mostly be concerned about color of 
law killings. And that is something we should be concerned 
about. It is a big difference.
    A question for Professor Ramirez, you mentioned an 
investigation, prosecutorial decisions rest in the hands of 
D.A.s, and Mr. Gowdy mentioned recusal. Recusal is up to the 
D.A.
    And in the recommendations of the President's task force, 
there were recommendations that we have an independent 
prosecutor. Congressman Clay and I have introduced a bill that 
requires States to adopt independent prosecutor laws or face a 
cut in Byrne JAG funding. This would present a solution.
    Is part of the reason that the problem exists is 
perception? Is that part of the reason why you think it is 
important to have an independent prosecutor, because the 
perception the public has that there is not independent 
analysis of the cases and independent determination of who 
should be prosecuted?
    Ms. Ramirez. Yes, sir. It is primarily a matter of 
perception, because I believe that prosecutors across the 
country try to do the best that they can and exercise the best 
judgment. But because of this inherent conflict, there may be 
the perception in the eye of the public that this was not a 
fair and full hearing.
    Mr. Cohen. The D.A.'s main witnesses are always police.
    Ms. Ramirez. Correct.
    Mr. Cohen. In my community, the D.A. hires, which makes 
sense, former sheriff's people or police people to be their 
investigators.
    Ms. Ramirez. Yes, sir.
    Mr. Cohen. Yes, so there is an inherent conflict. That is 
the reason we have our bill, Lacy Clay and I, because we think 
not only would it eliminate the perception, but also there are 
certain cases where there are politics are involved. And a base 
for the D.A. who is elected is law enforcement, and that is a 
political problem. So that is number one.
    Ms. Rahr, you were a member of the President's task force, 
and thank you for your work and your colleagues' work. The task 
force recommended the use of independent prosecutors as well, 
where police use force and it results in death or injury.
    Was the recommendation based on instances where D.A.s did 
not pursue cases against police as aggressively as they should 
have, or, again, was it based on the mere perception of the 
conflict of interest and the damage that perception can have on 
public trust?
    Ms. Rahr. In our debates and conversations, the primary 
focus was on the perception. It is in recognition that we have 
to maintain public trust.
    There are many prosecutors across this Nation that are 
perfectly capable, I believe, of doing an objective 
investigation and prosecution of police shootings. 
Unfortunately, we have to maintain public trust. And when you 
try to balance those two issues, it was the consensus of the 
task force that public trust had to have more weight than just 
the pragmatism of having that particular prosecutor.
    Mr. Cohen. We are down to my last minute, but you mentioned 
training. Part of the bill I have with Representative Clay 
requires some kind sensitivity training for police to recognize 
ethnic differences, gender differences, et cetera, et cetera, 
and maybe sexual orientation differences.
    Do you think this would be helpful for police to have 
training in terms of the diverse societies that we have today?
    Ms. Rahr. I do believe it would be helpful to have 
training. I wouldn't title it ``sensitivity training'' because 
I think the police would shut down immediately.
    Mr. Cohen. I agree with that.
    In my last minute, Sheriff Clarke, let me ask you this. You 
mentioned in your testimony that much of the population in 
State and Federal prisons was for violent crime. Probably, that 
is true. But in the Federal system, it is mostly for drug 
crime. There is not so much violent crime there. That is where 
the drug situation really fills up the Federal prisons.
    You said that illegal drug use is the scourge of the Black 
community. And it is a problem and leads to a great deal of 
violent crime. Would you agree that marijuana possession is not 
the scourge of the Black community and does not lead to violent 
crime the same way that meth, crack, cocaine, and heroin do?
    Sheriff Clarke. No, I wouldn't agree with that at all.
    Mr. Cohen. Well, that is interesting. I wish I had more 
time to talk with you.
    Thank you for allowing me this opportunity. A defense 
attorney is not supposed to ask a question they don't know the 
answer to, but it was such an obvious answer, I never thought I 
would get that answer. [Laughter.]
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Iowa, Mr. King, for 
5 minutes.
    Mr. King. Resisting the temptation to yield the balance of 
my time to Mr. Cohen.
    Mr. Cohen. Thank you, Mr. King.
    Mr. King. I would point out that I have in my hand an 
article from Investor Business Daily, and it is dated, by the 
way, the 6th of May, but is titled, ``Obama praised Baltimore 
police he is now investigating.'' It points out the study that 
the gentleman from Tennessee referenced, the President's Task 
Force on 21st Century Policing, which I have in my hand.
    And it also quotes from the police chief of Baltimore, who 
said he changed outdated procedures that put officers at odds 
with the community. This goes back to March of 2015. The date 
of this article is the first week or so in May.
    It is interesting to me, as I listen to the testimony of 
Ms. Rahr, and I give you credit for contributing to that report 
as well, that you would like to see a shift from the warrior 
mentality to that of a guardian. And I think of the night I 
came here and I watched live on television the encounters with 
Baltimore police and rock-throwing mobs. And I saw the 
Baltimore police retreat from rock-throwing mobs.
    So I would ask you, is there a time they need to convert 
back to the warrior mentality and was that the time?
    Ms. Rahr. I want to clarify when I talk about a guardian 
mentality, that absolutely does not imply retreat. It does not 
imply weakness. It implies being able to do two things at once.
    Mr. King. You can do that by just answering my question, 
also.
    Ms. Rahr. I am sorry?
    Mr. King. You can also clarify by just answering my 
question. Was Baltimore a time there should have been more of a 
warrior mentality when they were facing rock-throwing mobs and 
retreating in the face of rock-throwing mobs? Was that a time 
that there needed to be an engagement of the police rather than 
a retreat?
    Ms. Rahr. They needed to use warrior tactics while having 
the mindset of a guardian.
    Mr. King. Okay, thank you.
    I would turn to Mr. Ramirez, and your testimony was very 
interesting to me. And I began thinking about our Constitution 
and where it says in the First Amendment, I will paraphrase, 
but also accurately, Congress shall make no law respecting the 
right of the people peaceably to assemble and to petition the 
government for redresses of grievances. Do you agree with that 
statement?
    Ms. Ramirez. Yes, sir.
    Mr. King. And there is no prohibition in that statement 
that I read, and would you agree, that prohibits Congress from 
making a law or enforcing a law that would prohibit the people 
from violently assembling to petition the government for 
redress of grievances?
    Ms. Ramirez. Congress does have the right to restrain 
violence in any form.
    Mr. King. Yes. And so we agree that freedom of speech isn't 
the right to yell fire in a crowded theater?
    Ms. Ramirez. Correct.
    Mr. King. Then we could also agree--no, I will ask you. Is 
it then lawful or unlawful for one to pay protesters and 
encourage them to become violent?
    Ms. Ramirez. I think that is a crime.
    Mr. King. Yes. And I would agree with that also.
    I would point out that my--and ``encourage violence,'' I 
want to pull that part out as a separate clause in my statement 
here for this purpose. I have in my hand a stack of tweets and 
stories and messages about protesters in Ferguson, Missouri, 
who now are protesting that they didn't get paid for the work 
that they did. And I put that word ``work'' in quotes.
    Have you reviewed any of that? Are you knowledgeable about 
any of that information, Ms. Ramirez?
    Ms. Ramirez. No, but, I would say this, that at this 
juncture, the most helpful thing that we could do is to try to 
bring the community and the police together in dialogues at the 
local level.
    Mr. King. I do understand that. That was in your testimony, 
and I think the panel understands it.
    But if you were presented with information that indicated 
that there was a funder or funders who had hired protesters 
that may well have been to bused into places like Ferguson, 
Missouri, or sent to places like Baltimore, and we ended up 
watching buildings and businesses be burned and property damage 
being created, and in some cases assault, would that be worthy 
of an investigation, would you think, by the local police 
force?
    Ms. Ramirez. Yes.
    Mr. King. And what about the U.S. Attorney General?
    Ms. Ramirez. I think that if there is evidence that someone 
was being paid to engage in violent protests and engage in 
violence, then that is a serious problem.
    Mr. King. But you wouldn't think that if they didn't say 
violence, if they just said protest, and it turned into 
violence, that wouldn't be a crime?
    Ms. Ramirez. That is a different situation.
    Mr. King. Thank you.
    I would like to turn and ask Sheriff Clarke if he could 
respond with his reflections upon this exchange that he heard?
    Sheriff Clarke. Sure. I was a little disappointed there 
weren't more aggressive prosecutions and attempts to 
investigate some of the behavior of some of the rioters who 
were captured on videotape. One of the ones that stands out to 
me is a group of young individuals standing and dancing on top 
of a police cruiser that had been destroyed, so to speak, as if 
they had captured some sort of ground. That is government 
property.
    In Wisconsin, we have a statute of inciting a riot. I think 
those things should be used on both sides. There just seems to 
be too much focus on what the police may have done, you know, 
prior to the riots breaking out.
    As you indicated, there is a more socially acceptable way 
under our First Amendment to display your frustrations, your 
anger, and it is not rioting. It is not destroying property of 
other people.
    We saw that night what Baltimore would look like without 
the police, with police stepping back as they did. Some say 
retreating. It was an ugly situation for a great American city.
    Mr. King. Thank you, Sheriff.
    I thank the Chairman and the witnesses and yield back the 
balance of my time.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Georgia, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I want to thank you 
and the Ranking Member for agreeing to hold this hearing.
    Sheriff Clarke, I heard about and read about your 
astigmatic testimony--that is the word I am trying to use--
astigmatic testimony. Please note my strong respect and support 
for police and law enforcement, and also note my strong 
insistence that the rule of law apply to all, regardless of 
whether a person is a civilian or law enforcement.
    The failure to prosecute police officers, militarize police 
responses to peaceful protests, and video footage of people 
dying by the hands of law enforcement have led us to where we 
are today.
    While discussing police accountability is an essential way 
to improve the relationship between the community and law 
enforcement, I hope that this Committee will hold additional 
hearings that will allow us to specifically focus upon grand 
jury reform, use of body cameras, and the DOJ's data collection 
and transparency practices.
    Before we witnessed the militarization of police in 
Missouri, I had been working on the Stop Militarizing Law 
Enforcement Act, which prevents local police forces from 
receiving MRAPs, tanks, and other weapons left over from the 
war. And I am very grateful and humbled that President Obama 
yesterday issued an executive order that virtually ends the 
1033 program.
    I have also introduced the Grand Jury Reform Act, which 
calls for the use of special prosecutors and independent law 
enforcement agencies when there has been a police killing.
    And also, I have introduced the Police Accountability Act, 
which would expand the DOJ's authority to bring charges against 
law enforcement officers.
    Sir, have you ever heard the name Ariston Waiters before? I 
am sure that you haven't. He was just a 19-year-old unarmed 
Black male, just a typical unarmed Black male down in Union 
City, Georgia, who was shot while lying on his stomach. Shot 
twice in the back by a law enforcement officer, a police 
officer from Union City. Shot twice in the back at close range.
    The officer who killed Mr. Waiters allegedly exhibited 
signs of posttraumatic stress disorder. He was an Afghanistan 
war veteran. According to the Anxiety Disorders Association of 
America, there are 40 million adults in the United States over 
the age of 18 who suffer from anxiety disorders, and 7.7 
million of those Americans suffer from posttraumatic stress 
disorder.
    I am concerned about the role mental health issues play in 
officers using excessive force against civilians. We have 
talked about police officers receiving training on how to 
apprehend people suffering from mental illnesses, but what is 
your department doing to make sure that officers themselves 
aren't suffering from mental illnesses?
    Sheriff Clarke. Mr. Chair, Congressman, that is one of the 
most difficult situations that law enforcement officers today 
are dealing with, the mentally ill.
    Mr. Johnson. Would you agree that there must be some out 
there among the 7.7 million Americans suffering from 
posttraumatic stress disorder who are law enforcement officers? 
You would not deny that, would you?
    Sheriff Clarke. I do not have any data to refute it.
    Mr. Johnson. But would you think that there may be some 
cases where there are officers who are suffering from 
posttraumatic stress disorder and who are serving currently in 
law enforcement?
    Sheriff Clarke. If I had to guess, yes. I had such a 
situation with one of my patrol sergeants who served in the 
first Gulf War, I believe, and he slapped around a handcuffed 
prisoner.
    I not only had him charged with a felony, he went to prison 
for 18 months.
    Mr. Johnson. You are to be commended for that.
    Sheriff Clarke. It was a hard thing to do.
    Mr. Johnson. Does your department have a system of 
monitoring police officers or your officers periodically, just 
to determine whether or not they have any mental health issues 
that could impede their ability to protect and serve the 
people?
    Sheriff Clarke. No, not a systematic one. We have our 
standard early warning system.
    Mr. Johnson. Do you think it would be wise for the Federal 
Government--I noticed that in your statement, you say that, I 
am quoting you, ``Police use of force should be scrutinized--
locally, that is.'' Does that mean you do not think that the 
Federal Government should concern itself with these issues at 
all?
    Sheriff Clarke. It is not that I do not think the Federal 
Government should concern itself. I think the Federal 
Government should observe what is going on across the Nation 
with all these issues, but I think it is a slippery slope.
    Mr. Johnson. You say it should be scrutinized locally, 
though. Does that mean to the exclusion of the Federal 
Government?
    Sheriff Clarke. Well, if I could finish the sentence----
    Mr. Goodlatte. The time of the gentleman has expired, but 
the witness is allowed to answer the question.
    Mr. Johnson. Thank you.
    Sheriff Clarke. Sure, it should be scrutinized, without a 
doubt.
    Mr. Johnson. Thank you.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Pennsylvania, Mr. Marino, for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    It is a pleasure to have you here today. Sheriff, if you 
could zero in on an issue for me concerning resources, if you 
had the money, would you hire more sheriffs, deputy sheriffs? 
And where would you put them, what would you do with them?
    Sheriff Clarke. Yes, I would hire them. I am in a court 
battle now with the county. I have had to sue the county to be 
able to hire some more law enforcement officers. I would put 
them in the field based on what the data is showing where the 
crimes are occurring, and not just the crime but to provide a 
consistent visible presence as a deterrent to crime, not just 
making arrests and writing citations, but to deter and prevent.
    Mr. Marino. I agree with you. If you need help in that case 
with your superiors who fund money for your sheriff's office, 
let me know. I will be glad to join in and help.
    Sheriff Clarke. I will do that.
    Mr. Marino. Ms. Ramirez, I come from a long line of law 
enforcement people. We take it very seriously. I was an 
assistant district attorney. I was a district attorney. I was a 
United States attorney. My colleague here was one of the best 
assistant U.S. attorneys in the country. And I prosecuted cases 
myself.
    And I did not base my decision to prosecute cases involving 
African-Americans or police on color or on the police. I based 
it on the rule of law. It had nothing to do with who committed 
the crime and who didn't and what police were involved.
    And you stated that you had a difficult time choosing over 
law enforcement and police. I never did. If you have a 
difficult time like that, you shouldn't be a prosecutor.
    Why would you prosecute if you made that statement that I 
have a difficult time prosecuting police if they broke the law?
    Ms. Ramirez. In my particular situation, as an assistant 
U.S. attorney, we had not prosecuted police officers in the 
past. And the U.S. attorney at the time said to me, do you plan 
to practice law as a defense attorney here in Boston afterward?
    Mr. Marino. Okay. Let me reclaim my time. You are going to 
get into the U.S. attorney or that individual.
    You know you have a step to go to if you have a complaint 
about prosecuting a case in the U.S. attorney's office. You can 
go from one person to another and you can actually go to the 
Justice Department. Now, you also raised the issue----
    Ms. Ramirez. Which we did, sir. And may I say----
    Mr. Marino. No. I am asking the questions here.
    Ms. Ramirez. Okay.
    Mr. Marino. You also raised the issue of recusal, that it 
is up to the district attorney. It is up to the U.S. attorney. 
In the State courts and even in Federal courts, if there was a 
recusal, we looked at it very seriously. I have recused myself 
from cases and my staff.
    But, you know, it is not totally up to you. You can take 
that step to the judge. You can petition the court for recusal 
and petition as to why. You didn't mention that.
    And here is another thing I ran into as a prosecutor, as my 
colleague said. It was very difficult to get young African-
American males to testify against others, even in cases where a 
family member was killed.
    Can you address that for a little bit, please?
    Ms. Ramirez. That is one of the most important problems 
that needs to be addressed, and I want to talk about how we 
addressed it in Boston.
    Mr. Marino. Would you please do it quickly? I only have a 
minute and a half.
    Ms. Ramirez. We went to the community organizations. We 
went to the faith-based community. And we talked to the 
community and asked them why people were unwilling to come 
forward as witnesses. There were a myriad of causes. We set up 
a process and hearings.
    As a result, we had I do not know how many cold cases that 
were solved through a process in which the faith-based 
community went out, did outreach to the community. The 
community organizations did that, and we have improved on that.
    Mr. Marino. Okay, reclaiming my time, I agree, and that is 
a good way to handle it. But you do agree it is a problem.
    Ms. Ramirez. It is definitely a problem, sir.
    Mr. Marino. It is a big problem. You had an extensive, 
exemplary career, but have you ever ridden in a car with a 
police officer when they are faced with a quick reaction 
situation? I know you couldn't do it as an assistant U.S. 
attorney. But as a D.A., have you been on the street when a 
police officer had to make a split-second decision that has 
taken the United States Supreme Court 2 years to determine what 
is right and wrong in a 5-4 decision?
    Ms. Ramirez. Yes, I have been in cars where police had to 
make split-second decisions. I will tell you, I found it very 
frightening. And they do a job I could not do.
    Mr. Marino. There is a difference between a split-second 
decision and the fact that someone has to determine over a 
period of time what is right and wrong.
    You cherry-picked a lot of cases, but you didn't bring up 
the issue that the number keeps coming up, that 93 percent of 
the young Black males, those ones that are murdered, 93 percent 
are killed by young Black males. Why is this happening, and 
what can we do to change that?
    Ms. Ramirez. That is a serious problem, sir, but I do agree 
with others who have said that what happens under color of law 
is different from what happens privately between private 
individuals.
    They are both problems, but they are different problems. 
And when someone kills under color of law, that merits a 
different process.
    Mr. Marino. I think any prosecutor worth his or her salt 
understands that very, very much.
    I yield back the time.
    Mr. Goodlatte. The time of the gentleman has expired.
    The gentlewoman from California, Ms. Chu, is recognized for 
5 minutes.
    Ms. Chu. Thank you, Mr. Chairman.
    Ms. Rahr, you have used a new approach of policing called 
LEED, Listen and Explain with Equity and Dignity, which puts a 
premium on conversation and listening during a police 
encounter.
    Could you walk us through a hypothetical situation where 
LEED has worked to deescalate a situation and tell us why it 
works?
    Ms. Rahr. The purpose of developing the LEED model is to 
simplify the principles behind procedural justice and give 
officers very specific tangible, behavioral direction.
    In situations where there is conflict, taking the time, if 
there is not a threat present--I want to be very clear about 
that. If someone is pointing a gun at you, you do not listen 
and explain. You do what you have to do.
    But in most police interactions in the community, there is 
time. And if officers are reminded of the benefit of listening, 
that will help set that interaction going down the correct 
track.
    Most police officers, like myself, we like to step in and 
control things, and we have to be reminded to stop and listen. 
When people say police should treat people with respect, the 
most effective way to convey respect is to listen, so we really 
want to emphasize that for our officers.
    The other area where many officers forget is that we know 
the system inside out. We know how the process is going to 
work. We know what is going to happen next. People we are 
interacting with do not know that. It is that lack of knowledge 
that creates another level of conflict.
    And again, if the officer is reminded, tell the person what 
they can expect, they will be more likely to cooperate.
    When we talk about equity, that is simply to underscore to 
make sure you are recognizing, whatever biases you bring to the 
table, make sure you are making your decision on the outcome in 
an equitable way.
    And always leave the person you are interacting with with 
their dignity in tack, and act with dignity yourself.
    A lot of officers will mock whenever we use an acronym, and 
I get that. But it is also a very effective way to teach very 
specific behavior.
    Ms. Chu. In fact, talking about dignity, studies have shown 
that people in a community care more about how they are treated 
by police rather than the actual outcome of a police encounter. 
Police that may pull people over for a driving offense may find 
that people care more whether they were treated fairly by the 
police officer than whether they actually got the ticket.
    But as you have acknowledged in the past, empathy and 
patience do not necessarily come naturally for some police 
recruits. Something as simple as officers having friendly 
nonenforcement-related conversations with community members 
have shown to have huge benefits in building community trust.
    How do we change things so that the system values these 
characteristics in our police?
    Ms. Rahr. I think we start in the training academy by 
modeling that type of behavior and being very clear about that 
as an expectation.
    We also need to clarify that empathy is not the same as 
sympathy. Empathy means you understand what the person on the 
other side of the interaction is experiencing. I think it 
starts with training.
    I think it was mentioned by another witness that we have to 
come up with appropriate measures. People will rise to those 
things that are measured. When we find ways to measure officers 
behaving in ways that convey respect and dignity, that behavior 
will increase.
    Ms. Chu. Mr. Barge, thank you for acknowledging the role 
that implicit bias might play in making the type of quick 
decisions that police encounter every day. Social science 
research has shown that even individuals who believe that 
everybody should be treated equally may be affected by implicit 
biases or subconscious association between people of color and 
a perception of aggression and crime.
    Can you give us an example of a situation in which an 
officer's perception about an individual might be influenced by 
the way they react to that individual? And how can police 
departments work to preemptively dismantle this implicit bias?
    Mr. Barge. I think that one of the prototypical examples is 
one that Sheriff Clarke mentioned earlier, sort of the self-
initiated stop, maybe a broken taillight, that kind of thing, 
not even necessarily the initiation of the stop but how that 
interaction proceeds in that critical first few seconds. It may 
be informed much more about, I think with any of us, sort of 
broad categories that we are placing a new person who we have 
never met with or interacted with before into generalized 
buckets. And if officers do not do as training in several 
jurisdictions is starting to offer them instruction on, to slow 
down the situation where possible and sort of try to use very 
intentional decision-making strategies, I think they risk, 
especially because they often have to make these split-second 
decisions, being in some instances overly swayed by the 
subconscious sort of factors that they may not even be aware 
of, and if they were aware of, they would want to make sure 
were not going into their decision making.
    Ms. Chu. Thank you. I yield back.
    Mr. Gowdy [presiding]. I thank the gentlelady from 
California.
    The Chair would now recognize the gentleman from Texas, the 
former U.S. attorney, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Although far less successful or accomplished than you, Mr. 
Chairman, or my other colleague, Mr. Marino, I was also a 
Federal prosecutor and, as such, certainly believe in enforcing 
the law.
    Unfortunately, our national dialog currently on this issue 
reveals a mistrust on all sides of the issue that we are here 
to talk about today. But I very much appreciate all of you 
being here today to talk about how we as a society can address 
this in a sensitive, careful, and effective manner. And I wish 
that I had the opportunity to make inquiry to each one of you, 
but there are time restrictions and I do not.
    So I am going to focus at least initially on the witness in 
the field, if you will, you, Sheriff Clarke. I would like to 
first ask you, does your police department have clear policies 
on the use of force?
    Sheriff Clarke. Mr. Chair, Congressman, yes, sir.
    Mr. Ratcliffe. Do you have an opinion, and I am sure that 
you do, as to whether or not there is a problem with the law as 
it currently stands related to the use of force in this 
country?
    Sheriff Clarke. No, I do not.
    Mr. Ratcliffe. Okay. So it is your opinion that, as a 
Member of Congress with my colleagues here, there isn't 
anything that we need to do at this point to make it clearer to 
officers, so that officers are not second-guessed, if you will, 
as much as they are currently?
    Sheriff Clarke. I think that is a proper role for Congress, 
advisory oversight a little bit. But when the mandates start 
coming down as to how we should do our job at the local level, 
I am going to push back a little on that.
    Mr. Ratcliffe. So community policing certainly is intended 
to take the edge off of interactions, if you will, between the 
police and the communities that they serve. But would you agree 
with me that police work by its very definition is one that 
must involve conflict?
    Sheriff Clarke. It has great potential for conflict because 
of human interaction.
    Mr. Ratcliffe. Certainly, with respect to the end of the 
day, regardless of how the officer goes about his or her job, 
he or she has the responsibility to enforce the law, whether 
they are doing it with a smile on their face or not?
    Sheriff Clarke. Huge responsibility.
    Mr. Ratcliffe. Yesterday, the President's task force on 
policing issued findings that focused squarely on this issue of 
community policing. I know it is a very hefty document, but I 
was wondering if you had a chance to review it? And if so, what 
are your thoughts with respect to the findings?
    Sheriff Clarke. On the 21st century project?
    Mr. Ratcliffe. Yes, sir.
    Sheriff Clarke. Yes, I did read it. I didn't like a lot of 
it from the beginning. When the task force was put together, 
there were no elected sheriffs. I know my colleague is a former 
sheriff, but no elected sheriffs on the panel. I found that 
interesting. I also didn't see a lot of representation for a 
two-way exchange of what life was like for an officer on the 
street. They had some police administrators there. They had one 
organization that represents some fraternal organization of 
police, but that does not give the day-to-day example of what 
life is like on the street and why we have to do some of the 
things that we do. So I thought it fell a little short.
    Recommendations were heavy on Federal involvement, Federal 
control. Those are technical fixes that, okay, we can do that. 
But it is not going to change the behavior of many law 
enforcement agencies or the behavior of many of the individuals 
of color that we come in contact with on the street that end up 
in deadly confrontations. It does not reach far enough to do 
that.
    Mr. Ratcliffe. So, Sheriff, this is your opportunity to 
talk to Members of Congress. What would you like our takeaway 
to be with respect to that report or those findings, or 
corrections that you think are not reflected in there that you 
would like to make to that?
    Sheriff Clarke. One of the things that is not addressed 
that we keep glossing over, and I said ``we.'' We keep glossing 
over conditions that have led to the rise of the underclass of 
the American ghetto, where people can't find meaningful work. 
They have to send their kids to poor schools. Kids don't have a 
chance to reach their God-given potential to break out of that 
cycle of poverty, entrenched poverty.
    We have to look at some of the urban policies that have 
been enacted at the State and the Federal level that continue 
to feed into this growth of the underclass. What we are 
experiencing recently, it is not poor generally or Black people 
generally. It is the underclass behaviors.
    Kids growing up without fathers. School failure. Failure to 
stay in the workforce consistently. Failure to raise your kids. 
Father-absent homes. Those have nothing to do with the police.
    You can try to transform the police all you want, but as 
long as those behaviors, those lifestyle choices, are going to 
continue to grow in these urban centers, where the most 
assertive policing is needed, you are still going to have these 
confrontations.
    And when you try fight the police and disarm the police, so 
on and so forth, things are not going to end up well for you. I 
do not care how much more we pour into training. It approaches 
it as if it is linear. The world we live in is very 
asymmetrical.
    Mr. Ratcliffe. Sheriff, thank you for your insights and for 
your thoughtful comments.
    Again, I thank all the witnesses for being here today on 
this important subject.
    I see my time is expired. I yield back.
    Mr. Gowdy. Thank the gentleman from Texas.
    The Chair would now recognize my friend from Illinois, Mr. 
Gutierrez.
    Mr. Gutierrez. Thank you so much, Chairman Gowdy.
    First of all, I would like to thank all the witnesses for 
making their presentations here this morning. And I would like 
to talk just a little bit.
    I met with a group of young people from the Phoenix 
Military Academy in the City of Chicago, White youth, Hispanic 
youth, Black youth. Military academy, these are the best of the 
best.
    Have a conversation, everybody. We should have some of 
those people. I mean, I think, with all due respect to 
everybody here, we are a little too old to be having this 
conversation among ourselves about the problems that the police 
are encountering with young people. I would simply suggest next 
time we invite some those young people, those bright, dynamic 
young people.
    You know what they are going to tell you, Sheriff Clarke? I 
listened to a young Black man, Lieutenant Colonel in the 
Phoenix Military Academy, tell me that he has learned how to 
deescalate when he is confronted and comes into an exchange 
with a police officer. That almost brought tears to my eyes, 
that this wonderful, brilliant young man dedicated to this 
country, graduated from his class, has to talk about 
deescalating. He does not see the police as a source of 
protection. He sees it as somebody that he has to learn--the 
police have to be the adults. The children have to learn how to 
be adults many times, in how it is they exchange with police 
officers.
    We are having a conversation here where people are saying, 
well, Black people do not care about Black people. Nobody has 
made that claim here. I don't know why certain of my colleagues 
here say, well, they are not outraged when a Black person kills 
a Black person. That is not the issue here. It is really not 
the issue here.
    That is, certainly, an issue we might want to talk about. 
But it is not the issue. Nobody made the claim that that is a 
good thing.
    You know, that rioters are out there getting paid. Nobody 
said here it is a good thing that rioters should be paid. I 
could understand when you are making an argument against 
something that somebody is like sustaining. But it seems as 
though we are talking past each other as adults in this room 
instead of having young people.
    So I would just like, for the record, because I know there 
won't be enough time, I would like for the record, Mr. 
Chairman, these are the questions that the Phoenix Military 
Academy students, if I could just add this, Mr. Chairman, for 
the record?
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                __________

    Mr. Gutierrez. Thank you so much.
    Look, there is a young Latina, Jasmin Esquivel. She said, 
how can minorities feel less of a double standard during 
interactions with the law? Why does it feel like Whites are 
treated with more respect than minorities when questioned by 
police?
    These are students. To everybody here, understand 
something, I have talked to different groups of high school 
students, and they all tell you the same thing in the inner 
city.
    In Chicago last week, there were 45. So, Sheriff Clarke, 
you are right, too. There were 45 shootings in 1 weekend in the 
City of Chicago.
    Did I lock my grandson, Luisito, up? No. Did I tell my 
daughter do not go out on the streets? No.
    In my neighborhood, none of those shootings happened, in 
the neighborhood that Luis Gutierrez the congressman lives in. 
It is a tale of two cities. The shootings happen in 
geographical areas.
    In my city, when I grew up, the majority of the population 
in the City of Chicago was White, so you would expect a 
majority of the police officers to be White. Yet today, when 
Whites no longer constitute a majority, the majority of police 
officers in the City of Chicago are White.
    Is it that we are selling everybody that only White folks 
want to be police officers and care about this? I think that is 
a fundamental problem.
    So we go to Ferguson where there might be two Black police 
officers in a population that is almost 70 percent African-
American. That kind of disconnect is going to cause problems--I 
would think we would want to talk about some fundamental 
changes about how is it that we recruit people.
    I do not know, Sheriff, maybe you can answer this question, 
maybe you can help me. In Chicago, what I feel is, when I go 
talk to the cops in my district, and I go into some of the 
areas where there is more gang violence, I find it to be 
younger cops and I find that the older cops, like my dad, if he 
worked somewhere, by the time he had any seniority, he took the 
good shift, right? Are the young police officers getting the 
brunt of the work? What do you think?
    If the police officers, like when you joined the police 
force, the older veteran police officers who might have the 
training and the experience, are they the ones in the 
neighborhood where there is a lot of trouble, where you might 
need more veteran police officers? Or does seniority give you a 
better shift?
    Sheriff Clarke. Some of that is a collective bargaining 
agreement. You get shift assignment. I agree with your 
assessment there. The older, wiser, more experienced are 
earning better assignments because of collective bargaining 
rules. That is an issue.
    Mr. Gutierrez. I know we have gone over time. I just want 
to say, Mr. Chairman, I hope we can have another hearing. I had 
a conversation with Mayor Rahm Emanuel. I don't know how many 
of you got to hear his inaugural speech yesterday, where he 
dedicated it to the youth, and how it was that in the City of 
Chicago that no police force, that no government, was going to 
take the place of a good mom and a good dad, but that we have 
to be there to make sure that those parents have the resources, 
and that we stop living, even in the City of Chicago, in a tale 
of two cities where people feel safe in part of the city and 
where the police and the community are in sync with one another 
and another part where they are not.
    The last thing is, let us bring the young people. With all 
due respect, I am 61, so in some places I am a senior citizen 
already. Let us bring some young people.
    There are not enough young people around here or out there. 
They are 100 percent, as you all know, of our future and you 
are not going to settle this issue, I believe, in great 
measure, until we get young people and listen to their voices.
    Mr. Gowdy. The gentleman from Illinois is certainly very 
young at heart, and he yields back.
    The Chair will now recognize the gentlelady from 
California, Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair.
    I realize that our subject matter today is talking about 
policing, but I do want to make reference because it has come 
up several times about why there is not outrage when African-
Americans are killing African-Americans. I just have to tell 
you that it is always very frustrating to hear this raised, 
because it is as though people are not working on a daily basis 
day in and day out to address these issues in neighborhoods.
    I started an organization 25 years ago. I spent 14 years 
every day working in South Central Los Angeles in the height of 
the crack cocaine and Blood and Crips and all of that was going 
on, to address the crime, to address homicide. There are people 
working in communities all over this country.
    But the frustration we have always felt is that it is never 
covered in the news. What is covered in the news is when there 
is an incident between the police and, frankly, it is new that 
that is even covered in news, because the only thing that is 
new here are cell phone cameras, frankly.
    What has been going on in communities that is getting a lot 
of coverage now has been going on for years. So to say that 
communities are not concerned, to say there is not the outrage 
over the homicide rate, is just not accurate.
    I spent one summer in one area where homicides were 
concentrated. We did a whole effort, and we were able to go 3 
solid months without homicides. Then the resources ended.
    So we have to look at the root causes as to why the 
problems exist. It is not just a matter of behavior. I frankly 
do not believe that it is the policeman's job, and I agree with 
you Sheriff Clarke, it is not up to the police completely to 
address these problems. But what has to change in communities 
is the police working with the community.
    Unfortunately, people are fearful of the police in some of 
the communities. It was also asked what do people in tough 
neighborhoods want to see happen? People in tough neighborhoods 
want the same thing that anybody wants. They want to be safe in 
their homes and they want to be safe in their neighborhoods.
    Frankly, these issues are not just happening in 
``ghettos.'' And I think it is shameful, frankly, for the 
communities to be referred to that way.
    I have a brother who lives in Beverley Hills, okay? He gets 
pulled over by the police, stretched out on the ground, and 
asked why he is there. I think it is well known throughout the 
country that African-Americans, folks of color, can be outside 
of their ``ghettos'' and still have to deal with issues related 
to the police.
    A question was raised as to why folks do not cooperate with 
the police. Well, I will give you a couple of examples that I 
experienced on a daily basis working in South Central L.A. I 
cannot tell you how many people told me, well, I called the 
police, and I called about this crack house, and police went to 
the crack house and they said Ms. Jones down the street called 
and said you were selling crack here.
    People do not feel the police will keep them safe. And, 
frankly, there are not enough resources in the community to 
relocate people.
    So you want people to go and testify and put their lives at 
risk? If there were more resources, then people would be much 
more cooperative.
    We had a lot of problems in L.A. We were actually able to 
turn the situation around with the new chief, with community-
based policing. We are having some of the same problems emerge 
again.
    But we had a past police chief who said, when there was a 
spate of people who were dying because of chokeholds, he said 
at a press conference the reason that African-Americans were 
dying of chokeholds was because our veins were different, they 
collapsed quicker. We, fortunately, were able to get rid of 
that police chief.
    But these situations can be turned around. I listened to 
the testimony of Ms. Ramirez and Ms. Rahr, and there are other 
ways to go about policing. And we have seen some changes in our 
communities.
    Like I said, some of our problems are reemerging in Los 
Angeles again. But I just wanted to ask, in the last seconds, 
if, Ms. Ramirez, if you can give examples of a couple of 
communities that have turned the situation around where the 
police department works in cooperation with community 
organizations, where the police department has changed their 
perspective from the warrior mentality over to a mentality that 
works in partnership with communities, and where crime has been 
reduced, and where trust has been increased with the police 
department.
    Ms. Ramirez. The one I know best is Boston. We have 
decreased homicide rates. We have decreased the number of 
people we have incarcerated. And crime has gone down.
    The Boston Police Department has been working with the 
faith-based community and community groups on both issues. On 
issues of homicide, so if we have all these cold cases, as I 
said earlier, how are we going to get witnesses to come 
forward? One example of that is some witnesses said I would be 
happy to tell my account to someone who is not a police 
officer. Then some of that could be used for corroboration to 
get search warrants.
    There are many other examples in this country of excellent 
community-policing models were homicides have gone down. There 
are now 14 States that have decided to decarcerate. In each of 
those States, where they have taken the money from the criminal 
justice system that they were using to incarcerate people--in 
Massachusetts at $51,000 a year per inmate--taken the money and 
said, the system we have is too expensive, ineffective, and 
racially disparate. We are going to use that money to invest in 
education, to invest in treatment. Those communities have saved 
money and crime has gone down.
    Ms. Bass. Thank you. I yield back.
    Mr. Gowdy. The gentlelady from California yields back.
    The Chair now recognizes the gentleman from Louisiana. 
While I realize a lot of people have worked on criminal justice 
reform, Mr. Richmond has been talking about it since the very 
first day he got to Washington.
    Mr. Richmond?
    Mr. Richmond. Mr. Chairman, thank you for yielding.
    First, I would like to ask unanimous consent to enter into 
the record a Washington Post article that gives two Pinocchios 
to fact-checking Giuliani's claim that 93 percent of Black 
murder victims are killed by other Blacks, because of the 
relevance of the statistic.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                   __________
    Mr. Richmond. Let me just start with answering the question 
that my colleague posed. The real question, in his mind, is 
Black-on-Black crime and what do we do to solve that. Well, the 
first thing we do not do is cut Pell Grants and cut Head Start, 
which gives you a 9-to-1 return on your investment, and Pell 
Grants help you get to college. We all know that education is 
the best path out of poverty, and the circumstances in these 
neighborhoods.
    So we could start there, which we have done every year 
since I have been in Congress, with the budgets that we have 
passed. I think that is a very good start.
    Another start is to just have the conversation. I talk 
about it all the time. If anybody is concerned, I am here and 
willing to address it.
    I think that as a young African-American male who grew up 
in the inner city, I can have a lot to offer.
    Mr. Chairman, I prefer not to focus where we have 
differences. I think we have many. But I think we have some 
very similar goals, which is to keep our police officers safe 
and keep our constituents safe and to provide honest services. 
Whether it is police or whether it elected officials, people 
deserve honest service.
    Let me just ask a question from your policing. Do you 
believe that the makeup of the police department is important, 
in terms of looking similar to the community that it polices?
    Sheriff Clarke. I believe that.
    Mr. Richmond. I was asking you that because I wanted to 
share some of my real-life experiences as a young African-
American male, and why I think it is so important.
    The first time I was pulled over, when I got home from 
college and I was in St. Charles Avenue, the fancy part of 
town, in my mother's car. I did not have my license. A Black 
officer stopped me.
    He went through the process to get my information, ran it, 
came back to the car and said, ``I see a Morehouse sticker on 
the back of your car. You go to Morehouse?'' I said yes. He 
said, ``Well, Martin Luther King, who went to Morehouse, said 
the man can't ride your back if your back isn't bent.'' He 
said, ``You need to go home.'' And he let me go, and I went 
home. I never forgot that.
    While I was in the legislature, I saw a White officer stop 
a car full of White kids on the State Capitol grounds who were 
all smoking marijuana. He gave them a lecture and then called 
their parents to come get them.
    In all of my experience, if that White officer had stopped 
a car full of Black kids with marijuana, I do not think his 
answer would have been to lecture and call the parents.
    And it may just be cultural, but I think we have to look at 
the entire system. When we talk about diversion programs, 
whether they are being applied evenly, because we know once a 
kid gets a conviction, especially an African-American male, his 
life goes in a completely different direction, whether it is 
marijuana or whether it something more serious. He has a harder 
time getting financial aid to go to college. He has a harder 
time getting a job, all of those things.
    Without a job or without being engaged in society, it is 
hard to be a good parent. We have to make sure our law 
enforcement scheme, law enforcement practice, is not adding to 
the hurdles that many people are going to face anyway.
    So the question becomes, how do we ensure that those 
officers who have a lot of discretion when they make a stop, 
how young African-American and minority men and women feel that 
officer would give them the same lecture, the same break as an 
African-American officer or a officer who is looking their 
vested interests?
    I hope you can answer that.
    Sheriff Clarke. The use of discretion is always going to be 
scrutinized. I reject the notion that every time a White 
officer stops a car full of Black kids that they are 
necessarily going to go to jail.
    Mr. Richmond. I don't think it is every time, but it is 
going to be the majority of the time.
    Sheriff Clarke. Okay, well, let us just move beyond that.
    What I talk to young people about, young people of color, 
Milwaukee has a significant Black population, when I am in 
these schools, in these neighborhoods, I talk about lifestyle 
choices. When you engage in behavior and make flawed lifestyle 
choices, there has to be some accountability. It does not mean 
your life should be ruined. Maybe there could be a learning 
experience. I do not think an arrest for a small amount of 
marijuana early in your life is going to be a life-ruining 
experience. It is not. Will you recover?
    The greatest virtue that my parents instilled in me, the 
product of a two-parent family, the ability to overcome 
obstacles. You make mistakes. My dad said, you are going to 
make mistakes, you are going to fall down, you are going to 
fail, you are going to make questionable decisions. Learn from 
it and move on.
    I think that is a better message for even the individuals 
who have gotten into these situations. I had a young man once 
stop me on the street and said, ``Sheriff, I am a convicted 
felon and can't find work. Nobody will hire me because of my 
felony conviction.'' I said, ``Do you have kids?'' He said, 
``Yes.'' I said, ``How many?'' He said, ``Three.'' I said, 
``There is your job right there, to make sure your kids do not 
end up in the predicament that you are. Go home and be a good 
dad.''
    You know, he thanked me for it. I do not know whether he 
actually did it. But sometimes that message is a little more 
helpful to an individual than for me to commiserate in his 
misery, saying it is unfair, and the man, and this and that, 
and the discriminatory criminal justice system, and the racist 
police. That is not going to help the guy.
    That is what I try to do. I do not control all law 
enforcement officers, but I am not going to let people indict 
them with this broad brush like we have the tendency to do 
sometimes.
    Mr. Richmond. In closing, and I see my time has expired, I 
would just say two things. I think we should remove the 
barriers that keep people from moving on and learning and 
getting past that mistake, which may have been a marijuana 
conviction or something else.
    Another thing I would just say is I think it is great 
advice to tell him to be a father, but at the same time, he 
still has to get a job and put food on those kids' plates, 
because you cannot learn in school if you are hungry.
    Thank you, and I yield back.
    Mr. Gowdy. The Chair thanks the gentleman from Louisiana 
and recognizes the gentlelady from Washington, Ms. DelBene.
    Ms. DelBene. Thank you, Mr. Chair.
    I want to thank all the witnesses for being with us today, 
in particular, our former Kent County Sheriff from Washington 
State, Ms. Rahr, for being here with us.
    Actually, I had a question for you. I know that you have 
made many changes since you have been at the Criminal Justice 
Training Commission, and you talked a lot about transitioning 
away from a boot camp or military style approach to training 
officers toward a process that emphasizes the role as police as 
part of the communities, as guardians and protectors rather 
than military warriors.
    After a long career as an officer yourself, when you got to 
the CJTC, you replaced the trophy case with the U.S. 
Constitution and put in place training procedures that included 
recruits being sprayed with pepper spray so they know what it 
feels like, instituting psychology classes so trainees can 
better understand the people they will eventually be working 
with and protecting and interacting with.
    I know your methods have not been without skeptics. I 
wondered if you could share with us why you think a new 
approach to training our young men and women to serve as police 
officers is needed, especially today, and how these training 
methods translate to different outcomes or interactions in 
practice.
    Ms. Rahr. Thank you for the question. I want to clarify 
that I do not condemn the training practices in the past. I 
think we have learned a lot through research and science about 
how to prepare officers to be more effective. That has been one 
of the biggest areas of resistance, people being offended that 
somehow by improving our training that we are criticizing what 
used to be. That is not the case. We have learned more.
    In terms of pepper spraying the recruits, many people have 
misinterpreted that as an attempt to get them to feel empathy. 
Actually, the reason we do that is we want to put them in a 
fight-for-their-life stress situation, so they can learn for 
themselves that they can overcome extreme pain, extreme fear, 
and still carry on.
    When I talk about a guardian mindset, I have to continually 
reemphasize this is not a kinder, gentler way of doing the job. 
It is just the opposite. We have actually increased our 
firearms training. We have increased our defensive tactics 
training, because we want to create strong, effective police 
officers who have the confidence that they do not have to 
behave in an intimidating manner.
    When someone has confidence, that actually tends to 
deescalate as well.
    I think that when we were too focused on the boot camp 
method of training, it detracted away from our ability to train 
officers to be critical thinkers. When they were so worried 
about simply getting the right answer and memorizing a 
checklist, it took away from those critical-thinking skills.
    So what we have tried to shift toward is more of an officer 
training, a military officer's type of training, where you 
really focus on critical thinking and confidence.
    Ms. DelBene. Yesterday, President Obama signed an order 
restricting certain military equipment from going to police. Do 
you think that is also part of this transition? How do you feel 
about that?
    Ms. Rahr. I want to be clear that many of those pieces of 
equipment that police departments obtain through the 1033 
program are very much needed in the field. When I was sheriff, 
I cannot tell you how many times I needed that armored 
personnel carrier to either rescue an officer pinned down 
behind gunfire or a citizen pinned down behind gunfire. An 
armored personnel carrier allows police officers and hostage 
negotiators to get closer to the scene to actually find ways to 
resolve the conflict without gunfire.
    Unfortunately, when the program started, there was not a 
lot of accountability and training that went with it. I believe 
that is what the changes in the law focus on.
    Police departments will still be able to get armored 
personnel carriers, because they are absolutely necessary to 
have in the field. The weapons, the rifles, that type of 
equipment, those are also necessary, and they are less 
expensive when we get them through the military.
    So I hope there is an opportunity down the road for people 
to understand more clearly the benefits of that program, but 
also the necessity of the accountability that comes with it.
    Ms. DelBene. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. Thank the gentlelady from Washington.
    The Chair would now recognize his friend from New York, Mr. 
Jeffries.
    Mr. Jeffries. Thank you, Mr. Chairman. Thank you for your 
work on criminal justice reform, as well, as we try to work 
toward a productive resolution of the challenges we face here 
in America.
    I think most would agree that, in a democracy, we just need 
a balance between effective law enforcement on the one hand and 
a healthy respect for the Constitution, for civil rights, and 
for civil liberties on the other.
    What people want in inner city communities like those I 
represent, or as Sheriff Clarke would refer to as the ghetto, 
what people want is to make sure that the constitutional 
principle of equal protection under the law applies to 
everyone. There is concern that, in certain instances, that is 
not the case.
    The overwhelmingly majority of police officers are 
hardworking individuals who are there to protect and serve the 
community. That is my position. I believe that is the position 
of everyone who is genuinely interested in police reform.
    But we cannot ignore the fact that we have a problem in 
some instances with excessive use of police force, and the fact 
that often it is the case that when a police officer crosses 
the line, they are not held accountable by the criminal justice 
system. That creates consequences in terms of a distrust in 
many communities, perhaps leading to the absence of 
cooperation.
    Let me start with Sheriff Clarke. You mentioned in your 
testimony that Black-on-Black crime is the elephant in the room 
that few want to talk about. Is that correct?
    Sheriff Clarke. Yes, sir.
    Mr. Jeffries. We have had a very robust discussion about it 
today. Have you been satisfied? It has come up several times.
    Sheriff Clarke. Not at all.
    Mr. Jeffries. Okay, you are not satisfied. Now, I agree it 
is a problem.
    Eighty percent of Whites kill Whites, correct?
    Sheriff Clarke. I won't dispute that figure.
    Mr. Jeffries. Okay. Actually, it is 83 percent.
    Now, is White-on-White violence a problem in America that 
we should also have a robust discussion about?
    Sheriff Clarke. Mr. Chair, Congressman, violence in 
America, in general, is problematic. But if you look at the 
rates, that is where it starts coming a little more into 
balance in terms of the data I have seen, and I have looked at 
a lot of it. The White-on-White crime does happen at the 80 
percent figure you put out there, but when you look at the 
rates of it, these two are not even close.
    Mr. Jeffries. The rates are roughly equivalent in terms of 
the context of people who live next to each other, and because 
of housing, segregation patterns, or just where people tend to 
live in America, ethnic violence, racial violence, tends to 
occur within the same group.
    So elevating it beyond that fact I think is irresponsible. 
We all want to deal with the Black-on-Black violence problem.
    It was mentioned that there is a cooperation issue in the 
Black-on-Black violence context. I do not think I have heard 
the phrase ``blue wall of silence'' mentioned here. So if we 
are going to have a conversation about cooperation, when 
someone crosses the line, it seems to me to make sense that we 
also have to deal with what may be another elephant in the 
room, to use your term, Sheriff Clarke, the blue wall of 
silence.
    The overwhelmingly majority of officers are good officers, 
but what often occurs is that when an officer crosses the line, 
the ethic is not to cooperate or participate or speak on what a 
bad apple officer has done.
    Professor Ramirez, would you agree that that is perhaps 
something we should also be focused on?
    Ms. Ramirez. I think it is a serious problem both at the 
Federal and State level.
    As I said earlier, in my own experience, in trying to 
prosecute police officers, here is just one problem. The FBI 
and DEA said we will not even serve subpoenas on a case in 
which a police officer is a defendant.
    Here is a second problem: They tried to testify in the case 
in favor of the police officers, saying that they had made 
their own independent evaluation of the case.
    This is the case, by the way, that was adjudicated guilty 
against all officers, and they were incarcerated for between 10 
and 20 years after the trial.
    As you know in Boston, we had a problem with the FBI, that 
there were FBI agents who were engaged in a series of 
misconduct with Whitey Bulger. That went on for many years and 
was not prosecuted.
    Mr. Jeffries. Thank you, Professor Ramirez. My time is 
getting ready to expire.
    But, Sheriff Clarke, you also mentioned the use of force 
should be examined in terms of factual data and not an 
emotional foundation of false narratives. Is that correct? Did 
I get your testimony correct in that regard?
    Sheriff Clarke. Mr. Chair, Congressman, yes.
    Mr. Jeffries. Okay. Now, was the reaction to the Eric 
Garner case, who was choked to death using a procedure that had 
been banned by the NYPD for more than 20 years, wasn't 
resisting arrest, said, ``I can't breathe'' 11 times, 11 
different occasions, there was no response by all of the police 
officers there, was that a false narrative that people in the 
City of New York and the country are reacting to, sir?
    Sheriff Clarke. Mr. Chair, Congressman, first of all, he 
was not choked to death, not from the report I had seen out of 
the grand jury testimony and even from the medical examiner's 
report. He wasn't choked to death.
    Mr. Jeffries. The medical examiner ruled the death a 
homicide by asphyxiation. In the ghetto, that is called being 
called choked to death, sir.
    Sheriff Clarke. Well, we can have this discussion later on 
about the facts, because we could be here for a while. My 
understanding is he died of a heart attack, okay?
    But anyway, you said he was not resisting arrest. He was 
resisting arrest. He was told that he was under arrest and put 
his hands behind his back, and he would not do so.
    That is why I put in my remarks here, the reference from 
Thomas Sowell about when law enforcement officers tell someone 
they are under arrest and they cannot use force to execute that 
arrest, we do not have the rule of law when it is merely a 
suggestion for them that they are going to jail or to put their 
hands behind their back.
    Those are behaviors, like in the instance of Mike Brown in 
Ferguson, Missouri, where some different choices by the 
individual could have helped the situation. In other words, 
Mike Brown was just simply told to get out of the street.
    Mr. Jeffries. Sir, my time has expired. But for you to come 
here and testify essentially that Eric Garner is responsible 
for his own death when he was targeted by police officers for 
allegedly selling loose cigarettes, which is an administrative 
violation for which he got the death penalty is outrageous.
    If we are going to have a responsible conversation, we have 
to at least agree on a common set of reasonable facts that all 
Americans interpret, particularly in this instance, because 
they caught the whole thing on videotape.
    I yield back.
    Mr. Gowdy. The Chair thanks his friend from New York.
    The Chair will now recognize the gentleman from Texas, 
Judge Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    I thank all the witnesses for being here, for your 
thoughtfulness. Obviously, you have spent a lot of time on 
these issues through your career, rather than just the time 
here today.
    It is a difficult issue. I saw a report, though, this 
morning from the task force. I understand we have a member 
here. It quotes the task force as saying, ``The U.S. Department 
of Homeland Security should terminate the use of the State and 
local criminal justice system, including through detention, 
notification, transfer requests, to enforce civil immigration 
laws against civil or nonserious criminal offenders.''
    I am wondering, to fix the problem that we saw explode 
there in Ferguson and in Baltimore, is there anybody, any one 
of our witnesses, that thinks preventing State and local law 
enforcement officers from notifying the Feds about people 
illegally in the country, that that would do anything to solve 
the problems in Ferguson or Baltimore? Anybody?
    I mean, I am also perplexed, having been a prosecutor, rode 
along with law enforcement back in those days, a district judge 
handling felonies, a court of appeals chief justice, we had a 
real problem with the Federal Government not picking up 
criminals. They would tell our local law enforcement this 
person is illegally in the country so we have jurisdiction. 
This task force makes a comment about nonserious criminal 
offenders.
    I think it was nine DWIs a fellow had who was in my court. 
He finally came to felony court after he hurt and nearly killed 
some folks. But I sentenced him to prison because he was not 
being deported. And about 6 months later, he is back in my 
courtroom because, he said, through the interpreter, well, the 
Federal people took me to the border and told me to walk across 
the bridge. Then when they left, I came back across. He got 
back, got drunk again, in another accident.
    I am really having trouble with the task force thinking 
this is going to solve any problems with regard to racial 
difficulties in our cities.
    Perhaps you can help me out here. I know, Ms. Rahr, you had 
a really great career. You have served your community, your 
country now.
    Do you see just having State and local law enforcement to 
avoid any discussion about immigration, is that really going to 
help problems in our cities?
    Ms. Rahr. As I recall, the recommendation does not say 
there should be no cooperation. The discussion that we had in 
the task force involved the balance of public safety. There are 
many communities where there are large groups of undocumented 
people living in neighborhoods that commit crimes and are 
victimized by crimes. Because there is such a fear of being 
deported, a lot of victims do not call the police because they 
are afraid of deportation.
    This is particularly a problem in domestic violence 
situations.
    Mr. Gohmert. I know, I saw that same concern by the big 
group of people illegally here in the gallery that were trying 
to disrupt. I have seen people illegally here in this gallery 
disrupting. I did not note a lot of concern about law 
enforcement deporting them, because you have to be pretty 
ignorant about what is going on in this country to think you 
are at risk for deportation.
    Anyway, I am more concerned about the victims who are 
victims of crime needlessly, if we would enforce at least the 
immigration laws on those who commit crimes. We are not doing 
it.
    What I see is a disregard for law enforcement, because they 
are not even going to help because this person is illegally in 
the country. So nothing is going to happen to them, and I end 
up being the one victimized. I hear that as much as anything.
    But I appreciate your sensitivity to these issues. I know 
the first couple of murder cases I worked on as a prosecutor, 
it was an African-American who shot an African-American in both 
cases. They were both in bars. We had people in the community, 
including the African-American community, saying, well, they 
should not have been there. It is not that big a deal. I found 
it offensive then that anybody would care about the race, and 
when somebody kills somebody else, it is not big deal.
    I am still concerned after all these years. We prosecuted 
those. We had concern. We did not care what the race was of the 
victim or the defendant. A killing is a killing.
    And I am glad that you all care about law enforcement in 
America. Thanks for your input.
    Mr. Gowdy. The gentleman from Texas yields back.
    The Chair will now recognize the gentleman from Rhode 
Island, and then the gentleman from Texas after that.
    The gentleman from Rhode Island, Mr. Cicilline?
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to our witnesses for being here.
    I think everybody on this Committee brings their own life 
experiences and perspectives here. Before I came to Congress, a 
long time ago, I was a criminal defense and civil rights 
lawyer. Most of my civil right cases involved claims of police 
brutality. I went from that to being Mayor of Providence, where 
I was acting public safety commissioner for 8 years overseeing, 
obviously, the Providence Police Department, and proud to 
report that in those 8 years, we brought the crime rate to its 
lowest rate in 40 years.
    So I bring my own set of experiences and have deep, deep 
respect for law enforcement and for the hard work of dedicated, 
good police officers.
    And nothing will be seared in my mind more directly than 
April 17, 2005, when a police officer was murdered in the 
Providence police headquarters. So I understand the hard work 
of our police, and I understand the importance of what they do.
    I think we do have to focus on systems, which build good 
review and detection of police misconduct, good oversight and 
civilian reviews, prosecutions, all of that.
    But what I want to focus on because the fact is those are 
important to do and we have to do them to rebuild trust between 
the police and the community. But in many ways, it is too late 
when those problems have already occurred.
    So what I really want to focus on is what do we do to help 
ensure that those kinds of situations do not occur? How do we 
build this mutually respectful relationship between police and 
community?
    I had a police chief who always used to say you should have 
a family doctor, a family lawyer, and a family police officer. 
We built a community-policing model in which there were 
lieutenants that were in charge of a neighborhood. They knew 
the residents in that neighborhood. Everyone in that 
neighborhood had their cell phone numbers. They were on housing 
boards. There were in nonprofits. They became part of the 
community. That is what helped result in the lowest crime rate 
in 40 years.
    So that is good not only for the community but for the 
police officers, the good police officers who deserve to have 
the respect and trust of their community.
    But at the core of this, as my chief used to say, the most 
powerful weapon I have, the most powerful piece of equipment, 
is the trust of the community. That is the single best tool I 
have to reduce crime in the city. We saw the results of that 
kind of attitude.
    So what I would like to hear from the witnesses, I think 
there are two ways to help achieve that kind of paradigm. 
Accreditation is one, and community-policing implementation is 
the other, not a unit within your department, but the entire 
department embracing this attitude of service and guardianship.
    So what are the impediments, Mr. Hartley? Providence went 
from a department when I took office that was under 
investigation by the Department of Justice for patterns and 
practice violations and other investigations to an accredited 
police department. But that is a hard process.
    So is it resources? How can we help more departments go 
through this accreditation process, so that we know they have 
standards and practices in place that respect this important 
balance that was mentioned between keeping communities safe and 
respecting the civil rights of individuals? What are the 
impediments? What can Congress do to assist many more police 
departments to go through that accreditation process?
    Mr. Hartley. Thank you. I will tell you, it is a 
complicated picture, because, as you know, it costs to be 
involved in this programming, so we talked a little bit about 
funding to help support organizations that want to pursue that.
    I also think it is critically important there is a broader 
awareness that there are other resources throughout the law 
enforcement and public safety community that exist to help 
agencies go through that. If you have been involved in it 
yourself, you know there are police accreditation coalitions 
out there that bring tremendous resources, because some 
organizations simply do not have the capacity to develop policy 
to support accreditation itself. So those organizations exist 
to help shepherd organizations in that particular direction.
    Mr. Cicilline. Should we consider requiring departments 
over a certain period of time to at least develop a plan to 
reach accreditation? I mean, it is sort of the gold standard of 
policing that I think police departments universally aspire to. 
But rather than just encourage it, should we be considering 
some system where we require departments at least to articulate 
a plan to get that place?
    Mr. Hartley. I think the requirement to consider how you 
might implement it is important, but I also will tell you the 
way we are structured to review agencies and assess their 
credibility, if you will, does not have investigatory 
authority, nor are we seeking that. In some ways, if you 
require it, it becomes a regulatory body, which in some ways I 
think prevents the integrity of the process from moving forward 
effectively, so I want to be cautious about that. But I think 
incentives to support organizations moving in that direction is 
critically important.
    Mr. Cicilline. I have just a few seconds left. I just 
wonder if any of the witnesses have any suggestions on how we 
might encourage or incentivize departments to really transform 
themselves into this community-policing model.
    I know, Ms. Ramirez, you talked about a community-policing 
institute. But I think the other part of that which no one has 
mentioned today is we have to figure out ways to encourage or 
require our police departments to ensure they reflect the 
diversity of the communities they serve. We have too many 
departments across this country that do not look like the 
people that they serve. And the value of people coming from the 
neighborhood who understand the cultural traditions and social 
mores, the different parts of the neighborhood, who are parts 
of the community and return back to that neighborhood after 
work at night, is incredibly valuable.
    I do not know that we have heard enough about how we ensure 
police departments reflect the diversity of the communities 
they serve.
    Ms. Rahr. In my experience, the most important thing to 
lead somebody to go into a career of law enforcement is to have 
a personal connection to someone who is already a cop. The way 
you get that is by building community trust and those 
connections.
    I know it is very popular to say officers should live in 
the communities where they police. In my county, most of our 
officers cannot afford to live there, so it is not realistic. 
But when you assign a deputy or officer to the same 
neighborhood for a long period of time, those connections grow. 
When that officer or deputy is rewarded for participating in 
the community, not just enforcing the law but also 
participating, that connection grows.
    It is the anonymity that really is the enemy here.
    Mr. Cicilline. Ms. Ramirez, it looks like you wanted to say 
something?
    Ms. Ramirez. This is on diversifying police departments. I 
just wanted to add a fact. In Massachusetts, we have a civil-
service system, and every police department chief who has been 
chief while I was there has tried to diversify the police 
department. The top scorer in Massachusetts, the person who got 
the highest grade on the exam they have to take to be a police 
officer, was 328th on the list. The reason for that is a whole 
series of preferences, mostly veteran preferences.
    I think a lot of the police chiefs are trying to figure out 
how they can reform the civil service system such that they can 
diversify the police department.
    They are stuck. They need some help. Do they need an 
inspector general? Do they need a State community justice 
institute? Or do they need some fact-finding process that can 
look at to what extent there are legal and civil-service 
challenges for police chiefs who are trying to diversify their 
police departments.
    Mr. Gowdy. The Chair thanks the gentleman from Rhode Island 
and would now recognize the gentleman from Texas, Judge Poe.
    Mr. Poe. I thank the Chairman. I am over here on this end. 
I thank all of you for being here.
    I am a former prosecutor in Houston, a former judge. I 
spent 30 years at the courthouse. I tried people who assaulted 
and killed police officers, both as a prosecutor and a judge. 
And I have tried cases as a prosecutor of police officers who 
have killed individuals and charged with violation of the law. 
So I have seen both sides of this perspective for a long time, 
having only tried criminal cases.
    Sheriff, I will start with you. Do you have any idea how 
many arrests, felony arrests, are made a year by police 
agencies in the country?
    Sheriff Clarke. No, I do not.
    Mr. Poe. Would you care to guess?
    Sheriff Clarke. No.
    Mr. Poe. I do not have any idea either. Does anyone know 
how many arrests are made by police officers?
    Sheriff Clarke. Mr. Chair and Congressman, it is available 
through the Bureau of Justice Statistics, and I believe the FBI 
would probably have some data on that as well.
    Mr. Poe. Okay, we will find that out then.
    Would you say or not the vast majority of those encounters 
with the police and a citizen are done according to the rule of 
law on the part of the peace officer?
    Sheriff Clarke. Without a doubt.
    Mr. Poe. How many would you say are not, there is some 
violation of the law, some violation of the rights of the 
accused in those felony cases?
    Sheriff Clarke. Averages is what I am basing that on.
    Mr. Poe. So what would it be?
    Sheriff Clarke. I wouldn't care to assign a number to it, 
because I do not know.
    Mr. Poe. Is it the majority or minority?
    Sheriff Clarke. It is very low.
    Mr. Poe. It seems to me that any police agency needs to 
have a plan for all circumstances. Would you agree with that or 
not? Some type of response, community policing, a protocol, 
whether it is a 101 arrest.
    I will give you an example. I am sure you are familiar with 
the event that took place in Waco, the town of the Chairman's 
alma mater, Baylor, this weekend, where you have five gangs, 
motorcycle gangs, three of which, the Cossacks, the Bandidos, 
and the Mongols, all assembled together in a place.
    Trouble ensued. Shots are fired. And a dozen police 
officers are there. Nine people are killed. Others are wounded. 
But the shooting stopped.
    The police, 11, 12 police officers, maybe a few more, 
arrested 170 individuals.
    Do you think that having a plan to respond to that type of 
situation is important for a local police agency to have?
    Apparently they did, they had some plan involved.
    Sheriff Clarke. Without a doubt, but I also think that in 
the moments leading up to that, the question I had was what 
kind of intelligence they had or information that this thing 
was going to go down, just in terms of these rival groups 
coming together.
    Mr. Poe. I am sure they had lots of intelligence. It 
appears they had intelligence. To me, that is part of a plan, 
is it not, to respond based on the intel you get that something 
may take place?
    Sheriff Clarke. Right, and part of that response really 
needs to be the preplanning, pre-staging, pre-marshaling of 
resources. When you have that many individuals coming together, 
you cannot just have a handful of officers. You do not have 
time to wait for calling in reinforcements. The planning is 
huge.
    Mr. Poe. No matter what the situation is, whether it is 
going to be a big event or small event, police planning and 
response so that the rule of law is followed, no matter the 
circumstances, is a good idea for policing, is it not?
    Sheriff Clarke. It is critical, yes.
    Mr. Poe. Okay. How many peace officers were killed in the 
line of duty last year?
    Sheriff Clarke. Last year? I know they added 238 names to 
the wall here at the national. Some of those were previous 
years, though. I do know that it is up nearly 90 percent so far 
in the first quarter of this year, around 54 officers killed in 
the line of duty. So the exact total out of that 238 for last 
year, I do not have.
    Mr. Poe. I have more questions. I will submit them in 
writing, Mr. Chairman. Thank you.
    Mr. Gowdy. Thank you, Your Honor.
    The gentleman from Texas yields back.
    The Chair will now recognize the gentlelady from Texas, who 
has a unanimous consent motion.
    Ms. Jackson Lee. May I, in unanimous consent, just say one 
or two points, Mr. Chairman?
    First of all, let me ask the Chairman to have unanimous 
consent to enter into the record the following documents: a 
statement and testimony from the American Civil Liberties 
Union; a statement from the National Urban League; Executive 
Order 13688, which provides Federal standards for acquisition 
of military equipment; a letter from myself, Mr. Scott, Mr. 
Cohen, and Mr. Conyers, requesting a hearing in 2014; and then 
an article entitled, ``Law Enforcement's 'Warrior' Problem,'' 
to be added into the record.*
---------------------------------------------------------------------------
    *Note: The submitted material is not printed in this hearing record 
but is on file with the Committee. Also, see Submissions for the Record 
by Rep. Jackson Lee at:

      http://docs.house.gov/Committee/Calendar/
      ByEvent.aspx?EventID=103474.
    Mr. Gowdy. Without objection.
    Ms. Jackson Lee. And then, Mr. Chairman, if I might, just 
in thanking the witnesses, just make one simple comment. That 
is, I want to express to all of you the significance of your 
testimony, and that the Judiciary Committee, through our 
Chairman and Ranking Member, and those of us who work on these 
issues, are very serious about coming forward in the spirit of 
recognizing the pain of an officer's death, and the pain of a 
civilian's confusion and apprehension about police, and maybe 
even their death.
    Frankly, I believe we can find that common ground. I hope 
you will allow us to inquire of you. We did not get to question 
everyone. I hope you will make yourself resources as we go 
forward to address a mother's pain, and as well as find that 
even place.
    And I end my remarks by quoting a philosopher, Johann 
Wolfgang von Goethe. ``Treat people as if they were what they 
should be, and you help them become what they are capable of 
becoming.'' Justice Hand said, ``If we are to keep our 
democracy, there must be one commandment.'' And, Sheriff 
Clarke, I think this is what you are speaking of. ``Thou shall 
not ration justice.''
    Everyone deserves justice. We do not deny your officers 
justice, and we have to let the civilian population, no matter 
who they are, know that they will get justice.
    That is what this Committee's purpose is. I hope that we 
will have more provocative hearings, maybe those who have lost 
loved ones, maybe young people who are raising the signs 
because of their passion of ``Black lives matter,'' ``all lives 
matter,'' ``hands up, don't shoot,'' and as well, ``I can't 
breathe.'' Let us give all of those people dignity.
    This hearing has been one to give all of us, including, 
Sheriff, all the men and women you represent.
    I yield back to the Chairman.
    Mr. Gowdy. The gentlelady yields back.
    On behalf of Mr. Conyers and the entire Committee, I want 
to thank our panel of witnesses for your expertise, for your 
experience, your life experience, your perspective, your 
collegiality, not only with one another but also with the 
Members of the Committee.
    I could not help but think while Judge Poe was talking, and 
Tommy Marino and Mr. Richmond and Mr. Jeffries, that we are all 
in part beneficiary but also part prisoner of our own 
background, our own experience. Prosecutors may not have the 
benefit of a judicial view like Judge Poe has. Or what Cedric 
described growing up is something that I would not have 
experienced growing up.
    So I think it is a good idea for us, to the extent we can, 
to rely upon the experiences of other people, well-intentioned 
people.
    There were a lot of issues raised, all of which are 
important. The issue I hope we can have another Committee 
hearing on, at some point--I think, Hakeem, Mr. Jeffries from 
New York, touched upon it--the failure to cooperate on that end 
impacts the prosecution of police officers who have done wrong.
    I saw the failure to cooperate in the faces of moms and 
dads who are trying to get justice for their murdered young 
people, because other witnesses would not cooperate.
    I think we all want a justice system that is respected. In 
fact, we have to have a justice system that is respected or we 
will not make it.
    So I hope this is the first of many hearings.
    Again, on behalf of Mr. Conyers, and all the other Members 
who participated, we want to thank you for your participation.
    This concludes today's hearing. Without objection, all 
Members will 5 legislative days to submit additional written 
questions for the witnesses or additional materials for the 
record.
    With that, thank you very much. We are adjourned.
    [Whereupon, at 1:07 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

          Letter from Rabbi Meyer H. May, Executive Director, 
                        Simon Wiesenthal Center
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Response to Questions for the Record from David A. Clarke, Jr., 
       Sheriff, Milwaukee County Sheriff's Office, Milwaukee, WI


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                <F-dash>

   Response to Questions for the Record from W. Craig Hartley, Jr., 
  Executive Director, Commission on Accreditation of Law Enforcement 
                                Agencies
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                <F-dash>

    Response to Questions for the Record from Susan Rahr, Executive 
  Director, Washington State Criminal Justice Training Commission and 
    Member of President Obama's Task Force on 21st Century Policing
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                <F-dash>

Response to Questions for the Record from Matthew Barge, Vice President 
      & Deputy Director, Police Assessment Resource Center (PARC)
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                <F-dash>

     Response to Questions for the Record from Deborah A. Ramirez, 
  Professor of Law, Northeastern University School of Law, Boston, MA
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
